<html>
<title> - COMBATING MONEY LAUNDERING AND OTHER FORMS OF ILLICIT FINANCE: HOW CRIMINAL ORGANIZATIONS LAUNDER MO- NEY AND INNOVATIVE TECHNIQUES FOR FIGHTING THEM</title>
<body><pre>[Senate Hearing 115-405]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-405


  COMBATING MONEY LAUNDERING AND OTHER FORMS OF ILLICIT FINANCE: HOW 
  CRIMINAL ORGANIZATIONS LAUNDER MONEY AND INNOVATIVE TECHNIQUES FOR 
                             FIGHTING THEM

=======================================================================

                                HEARING

                              BEFORE THE

                            SUBCOMMITTEE ON
         NATIONAL SECURITY AND INTERNATIONAL TRADE AND FINANCE

                                 OF THE

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

MODERNIZING THE UNITED STATES' ANTI-MONEY-LAUNDERING REGIME, EXPLORING 
HOW CRIMINAL ORGANIZATIONS LAUNDER MONEY AND THE INNOVATIVE TECHNIQUES 
                    THAT ARE AVAILABLE TO FIGHT THEM

                               __________

                             JUNE 20, 2018

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs
                                
                                
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                         
                                
                Available at: http: //www.govinfo.gov /
                
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-424 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8a8b798bbadabacb0bdb4a8f6bbb7b5f6">[email&#160;protected]</a>                   
                   
                
                


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                      MIKE CRAPO, Idaho, Chairman

RICHARD C. SHELBY, Alabama           SHERROD BROWN, Ohio
BOB CORKER, Tennessee                JACK REED, Rhode Island
PATRICK J. TOOMEY, Pennsylvania      ROBERT MENENDEZ, New Jersey
DEAN HELLER, Nevada                  JON TESTER, Montana
TIM SCOTT, South Carolina            MARK R. WARNER, Virginia
BEN SASSE, Nebraska                  ELIZABETH WARREN, Massachusetts
TOM COTTON, Arkansas                 HEIDI HEITKAMP, North Dakota
MIKE ROUNDS, South Dakota            JOE DONNELLY, Indiana
DAVID PERDUE, Georgia                BRIAN SCHATZ, Hawaii
THOM TILLIS, North Carolina          CHRIS VAN HOLLEN, Maryland
JOHN KENNEDY, Louisiana              CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas                  DOUG JONES, Alabama

                     Gregg Richard, Staff Director

                 Mark Powden, Democratic Staff Director

               Sierra Robinson, Professional Staff Member

               Colin McGinnis, Democratic Policy Director

                       Dawn Ratliff, Chief Clerk

                      Cameron Ricker, Deputy Clerk

                      Shelvin Simmons, IT Director

                     James Guiliano, Hearing Clerk

                          Jim Crowell, Editor

                                 ______

 Subcommittee on National Security and International Trade and Finance

                     BEN SASSE, Nebraska, Chairman

            JOE DONNELLY, Indiana, Ranking Democratic Member

BOB CORKER, Tennessee                MARK R. WARNER, Virginia
TOM COTTON, Arizona                  HEIDI HEITKAMP, North Dakota
MIKE ROUNDS, South Dakota            BRIAN SCHATZ, Hawaii
DAVID PERDUE, Georgia

                Ammon Simon, Subcommittee Staff Director

          Nick Catino, Democratic Subcommittee Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                        WEDNESDAY, JUNE 20, 2018

                                                                   Page

Opening statement of Chairman Sasse..............................     1

Opening statements, comments, or prepared statements of:
    Senator Donnelly.............................................     2

                               WITNESSES

Dennis M. Lormel, President and CEO, DML Associates, LLC, and 
  Former Chief, FBI Financial Crimes Program.....................     4
    Prepared statement...........................................    30
    Responses to written questions of:
        Chairman Sasse...........................................    54
        Senator Warner...........................................    60
Tracy S. Woodrow, Senior Vice President and Bank Secrecy Act/
  Anti-Money-Laundering Director, M&T Bank Corporation...........     6
    Prepared statement...........................................    37
    Responses to written questions of:
        Chairman Sasse...........................................    61
        Senator Warner...........................................    62
Chip Poncy, President and Co-Founder, Financial Integrity 
  Network, and Senior Advisor, Center on Sanctions and Illicit 
  Finance........................................................     8
    Prepared Statement...........................................    42

              Additional Material Supplied for the Record

Letter submitted by Fred R. Becker, Jr., President and Chief 
  Executive Officer, National Association of Federal Credit 
  Unions.........................................................    35
Letter submitted by Bill Cheney, President and Chief Executive 
  Officer, Credit Union National Association.....................    37

                                 (iii)

 
  COMBATING MONEY LAUNDERING AND OTHER FORMS OF ILLICIT FINANCE: HOW 
                   CRIMINAL ORGANIZATIONS LAUNDER MO-
            NEY AND INNOVATIVE TECHNIQUES FOR FIGHTING THEM

                              ----------                              


                        WEDNESDAY, JUNE 20, 2018

U.S. Senate, Subcommittee on National Security and 
                   International Trade and Finance,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Subcommittee met at 2:35 p.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Ben Sasse, Chairman of the 
Subcommittee, presiding.

            OPENING STATEMENT OF CHAIRMAN BEN SASSE

    Senator Sasse. This hearing will come to order.
    This is the third Banking Committee hearing on modernizing 
our Nation's outdated anti-money-laundering regime. Today we 
will explore how criminal organizations launder money and the 
innovative techniques that are available to fight them.
    I am pleased that Chairman Crapo is committed to examining 
this topic because modernizing our anti-money-laundering 
regime, AMLs, for the purposes of this hearing, is vital to 
financial institutions in Nebraska and Indiana and across the 
country. These vital institutions must spend millions of 
dollars on sometimes unnecessary AML compliance efforts, 
dollars that should be directed toward either more effective 
anti-money-laundering activities or toward lending to local 
businesses and farmers in States like Nebraska.
    I have heard stories of financial institutions at home who 
must file SARs or CTRs on fireworks sales, county fairs, 
rodeos, softball leagues, and even churches running their 
capital campaigns. Another financial institution must perform 
enhanced due diligence on their local Rotary Club. We can and 
must do better than this. We all want to stop money laundering, 
but we should do it in the most effective and efficient way as 
possible.
    This discussion today will cover how to improve cooperation 
and coordination with law enforcement officials and how to 
incentivize and enable financial institutions to adopt 
innovative AML techniques. This includes leveraging artificial 
intelligence and machine learning while still preserving strict 
AML rules targeting criminal activity.
    We will be hearing from Dennis Lormel, president and CEO of 
DML Associates and the former Chief of the FBI Financial Crimes 
Program. Thank you for being here. Dennis will talk about how 
criminal organizations launder money and avoid detection by 
financial institutions and how financial institutions are 
fighting back and how they should more effectively fight back.
    We will also be hearing from Tracy Woodrow, senior vice 
president, BSA officer, and anti-money-laundering director for 
M&T Bank. Tracy will discuss the successes of financial 
institutions in targeting criminal organizations and the 
barriers that financial institutions face when trying to fight 
these criminal organizations.
    Finally, we will hear from Chip Poncy, the president and 
co-founder of the Financial Integrity Network. Chip is stuck in 
traffic in a protest in DC right now but should be here in the 
next 15 to 20 minutes. He will be discussing how criminal 
organizations launder money and avoid detection by financial 
institutions and other major areas of crime that involve money 
laundering.
    Criminal organizations are constantly devising new ways to 
launder money because they have monetary incentives to do so. 
If financial institutions have any chance of stopping them, the 
AML regimes must also be constantly innovating. We do not have 
enough of that innovation right now. These innovations do 
exist, and we will be hearing about some of the most cutting-
edge approaches to doing that today, including how financial 
institutions can identify potential human traffickers by 
looking at patterns in their financial transactions. But 
financial institutions cannot and will not effectively adopt 
these new innovations without more incentives to do so.
    I believe our current AML system falls short in many 
regards. Encouraging AML innovation includes evaluating our 
fragmented system of regulatory compliance and its possible 
negative impact on innovation. We should also be considering 
how to better evaluate financial institutions by focusing more 
on tangible outcomes rather than merely process measures.
    As it happens, regulators can begin to move away from 
simply measuring compliance with process-heavy risk management 
requirements such as filling out the SARs. What is measured 
ultimately improves. So if we measure mostly compliance by SAR 
filings, financial institutions will just file more SARs. But 
if we move toward measuring results, that is, actually 
identifying and discovering the hidden resources funding human 
traffickers and drug cartels, financial institutions may be 
able to help identify more potential criminals. Suspicious 
activity reports will always be a vital part of our financial 
system, but producing them is not our main goal. Stopping crime 
is.
    Improving the system requires creating better feedback 
loops between law enforcement and bank regulators. They may 
also involve encouraging the use of no-action letters. At the 
least, we should be giving financial institutions more 
incentives and more flexibility to design their own AML systems 
without fearing regulatory liability that could spring from 
adopting more innovative and more effective AML techniques.
    Finally, more information sharing, both with FinCEN and 
other financial institutions, could be very useful for law 
enforcement
purposes. But this must be done with the utmost attention to 
privacy concerns, particularly in light of the recent cyber 
breaches we have seen at the SEC, at Equifax, and at retailers.
    Thank you again to the three of you for appearing in front 
of this Committee, and I thank Senator Donnelly for agreeing to 
work on this hearing with me. And I would like to hear what 
Senator Donnelly has to say.

               STATEMENT OF SENATOR JOE DONNELLY

    Senator Donnelly. Thank you, Mr. Chairman, for holding 
today's hearing, and thank you to our distinguished witnesses 
for appearing before the Subcommittee.
    Today's hearing will explore how criminal organizations 
launder money and avoid detection by financial institutions. We 
will also discuss how to improve cooperation and coordination 
between law enforcement and financial institutions and, most 
importantly, ensure that our policies help us better identify 
illicit finance and catch as many bad guys as possible.
    The Bank Secrecy Act was enacted nearly 50 years ago to 
enlist the financial services industry to help detect and 
prevent money laundering and fraud. Since that time, the BSA 
has become the cornerstone of U.S. anti-money-laundering policy 
and has expanded numerous times.
    The goal of money laundering is often to disguise the 
illegal origins of criminal proceeds. The types of criminal 
activities furthered by money laundering include human 
trafficking, drug trafficking, arms trafficking, and financial 
fraud.
    Without an effective AML regime, criminal organizations 
have an easier time moving and accessing financing, which 
furthers their criminal activities. For example, money 
laundering by drug traffickers like the Sinaloa cartel in 
Mexico has a direct connection to the opioid crisis in my home 
State of Indiana, where nearly 800 people died of opioid-
related overdose deaths in 2016.
    The United States is undoubtedly committed to combating 
illicit finance with robust AML laws and policies, but notable 
gaps and vulnerabilities remain. Several reports have concluded 
that the United States is among the easiest countries to create 
an anonymous shell company which could allow persons to legally 
open bank accounts and buy property. As a result, criminal 
networks, corrupt dictators, and even terrorists can move money 
through the United States as a legal business entity.
    Recent rules from Treasury to ensure banks know their 
customers will help, but criminals have an incentive to lie and 
can hide behind a corporate veil. Additionally, even though 
financial institutions are on the front line of identifying and 
preventing money laundering, they receive very little feedback 
from law enforcement on the millions of suspicious activity 
reports filed each year. If financial institutions have a 
better idea of what they should be looking for, we can improve 
the efficiency and effectiveness of our BSA/AML system to more 
accurately identify suspicious activity.
    It is imperative we bolster cooperation and coordination 
between financial institutions and law enforcement in order to 
increase the hit rate of BSA reporting. That is how we can 
catch more bad guys.
    There are many tough questions for us to consider today. I 
look forward to hearing from this panel.
    Thank you, Mr. Chairman.
    Senator Sasse. Thank you, Senator Donnelly.
    First, we will hear from Dennis Lormel, the former Chief of 
the FBI Financial Crimes Program and the current CEO of DML 
Associates. Mr. Lormel, thank you.

 STATEMENT OF DENNIS M. LORMEL, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, DML ASSOCIATES, LLC, AND FORMER CHIEF, FBI FINANCIAL 
                         CRIMES PROGRAM

    Mr. Lormel. Thank you, Mr. Chairman and Mr. Donnelly. Thank 
you guys for holding this hearing. I think it is really 
important, and I agree with the statements that you made coming 
into this that there is a lot we can discuss.
    I would like to clarify one thing, if I may. When you first 
introduced us, you talked about that I was going to talk about 
money laundering and how criminals launder money. I would just 
like you to know, sir, that I do not represent criminals when 
we launder money. I work with the financial institutions and 
certainly with the Government to a great degree.
    Senator Sasse. Thank you for clarifying that. We had Bureau 
agents waiting outside the door.
    [Laughter.]
    Senator Donnelly. The Chairman and I were having a long 
discussion about that.
    Mr. Lormel. No, it is funny, sir, because sometimes when we 
get into it, when I speak at conferences and things, that comes 
up. People ask me, ``So do you actually launder money?'' And I 
say, ``No. I work with the financial institutions.''
    The lightness aside, this is a serious topic, so I 
certainly appreciate the fact that you are holding this 
hearing. I think there is a lot of discussion and a lot of 
healthy discussion that needs to come.
    I have been involved in this for 45 years. I spent 31 in 
the Government, 28 with the FBI, and for the last 14 I have 
worked in the financial services industry as a consultant with 
a number of institutions on a lot of these issues. And I think 
I have developed a very unique perspective in that I understand 
the law enforcement side and I understand the benefits and 
burdens side that banks have to deal with on an ongoing basis 
in terms of regulatory compliance. So I look forward to 
touching on that.
    You said it. Make no mistake about it. This is very 
serious. The BSA and BSA information is really vital to law 
enforcement, and they do a good job with it.
    Terrorist organizations, criminals, criminal organizations, 
and bad actors rely on the financial system to access money, 
and the one commonality they have, even though a lot of the 
activity we are going to talk about and the different criminal 
activity you talked about--the drug dealers, the human 
smugglers, the human traffickers, trade-based money laundering, 
the real estate issues--Senator, you mentioned the opioids. 
There are so many different ways that that money can move, and 
so it is important to put into
context who we are dealing with. We are dealing with 
individuals, we are dealing with groups of individuals. We are 
dealing with
organizations, domestic and international, transnational 
criminal organizations. You are dealing with homegrown violent 
extremists, and you are dealing with terrorist organizations. 
So that landscape is so robust.
    In my written statement that I submitted for the record, on 
page 3, I have a diagram, and that is from a PowerPoint 
presentation that I have done, and I certainly welcome to share 
that PowerPoint with you. But, in any event, if you look at the 
money-laundering cycle, when you look at all of these different 
organizations, the one thing they have in common is they have 
to launder money. And I believe that in most of these predicate 
offenses, what you are going to find is that there is a good 
deal of fraud and money laundering. So if you listed all of the 
predicate offenses, everything we talked about, and put fraud 
on the top and put money laundering on the bottom, I think that 
represents kind of a sandwich, and the fraud and the money 
laundering represent the bread, the gourmet bread that would be 
on that sandwich. And for any successful organization, they 
have got to be able to use fraud; they have got to launder the 
money; and they do it through a lot of means.
    So when you look at that diagram that I have, every 
organization, regardless of what they are doing, they are going 
to raise, move, store, and spend. And in some instances, they 
are going to move and store and continue that cycle more and 
more, and that makes it more challenging for law enforcement 
because it seemingly legitimizes the money.
    So if you look at money laundering, money laundering is a 
three-step process: placement, layering, and integration. So 
between the raise and move is the placement. The integration 
comes in between the next two steps, the move and spend. And 
then the integration--I am sorry. Layering was the next step. 
And then the integration is that last step. And so all 
organizations, regardless of how dissimilar they are, are going 
to have that type of pattern of activity in how they are going 
to launder money.
    One thing I want to highlight here, because I know we have 
limited time in the statements and we will get into more 
discussion, but the problem of human trafficking. I think the 
industry, banks have done a fabulous job in identifying 
typologies. I want to point out that the Polaris Foundation 
published a book last year, published a study last year with 25 
specific typologies on human trafficking. I think that is a 
terrific study.
    One of the things I want to highlight, when we talk about 
the--if I may, I have run a little long, if you do not mind, 
sir.
    Senator Sasse. Continue.
    Mr. Lormel. One of the things that I think is important, 
because you both cited it in your testimony, is making SARs 
more efficient. And one of the ways we do that is through what 
I call ``targeted monitoring.'' And if you look at human 
trafficking, there have been tremendous initiatives in targeted 
monitoring.
    Back in 2010, JPMorgan Chase with Homeland Security 
Investigations, they had a targeted monitoring project where 
analysts from the banks met with analysts from Homeland 
Security. They developed typologies and what Homeland Security 
was seeing in terms of patterns of activity, and based on that, 
over the baseline transaction monitoring that the banks have, 
these teams of banks, they basically put together special 
typologies, and from those typologies they had a terrific hit 
rate in terms of suspicious activity reporting.
    Just now, in January during the Super Bowl or in the run-up 
to the Super Bowl, they replicated that, this time with a U.S. 
bank, and that was a terrific case study. And just like that, I 
think the FBI, the Financial Crimes Section and the Terrorist 
Financing Operations Section each have ongoing working groups. 
Unfortunately, the capacity to bring in more banks is not 
there, but with the groups that they are working with, the FBI 
is providing good feedback and good information for them to 
develop the reportable SARs that are so valuable.
    So on that note, thank you, sir, for letting me run a 
little long, and, Chip, I have been dancing until you got here, 
buddy.
    [Laughter.]
    Senator Sasse. We are going to go to Ms. Woodrow now, but, 
Mr. Poncy, thank you for being here and glad you made it 
through the protests.
    Mr. Poncy. Thank you, Chairman.
    Senator Sasse. Next up, Tracy Woodrow is senior vice 
president and BSA officer and the anti-money-laundering 
director at M&T Bank. Thank you for being here.

 STATEMENT OF TRACY S. WOODROW, SENIOR VICE PRESIDENT AND BANK 
     SECRECY ACT/ANTI-MONEY-LAUNDERING DIRECTOR, M&T BANK 
                          CORPORATION

    Ms. Woodrow. Good afternoon, and thank you for having me. 
Chairman Sasse, Ranking Member Donnelly, and Members of the 
Subcommittee, thank you for holding today's hearing to discuss 
the AML regime.
    Since 2013, I have overseen M&T Bank's AML/counterterrorist 
financing and sanctions compliance efforts. I also chair a 
working group at The Clearing House Association that is 
analyzing the resources that banks devote to these efforts.
    At M&T I lead a team of over 300 professionals who are 
dedicated to the detection and deterrence of money laundering 
and terrorist financing, while ensuring that our customers can 
conduct transactions in a safe, secure, and private manner. We 
use a variety of tools in this effort and are beginning to 
adapt new technologies to assist us with it.
    For example, we are using flexible data analytics to 
understand emerging risks and suspicious activity patterns. We 
are also working directly with law enforcement to identify red 
flags that may indicate suspicious activity and have 
accomplished a great deal with this collaboration.
    Finally, we are exploring the use of automation, artificial 
intelligence, and shared utilities across financial 
institutions to assist us in better assessing the huge amounts 
of data and identifying unusual financial transactions.
    Criminal organizations move money through the financial 
system in many ways, including the use of cash, ACH, wires, 
investments, and trade finance, as well as through emerging 
technologies such as virtual currency and person-to-person 
applications. They use shell companies to hide their identities 
or to create the false
impression of legitimate business activity. And they use front 
companies and money mules to hide the real people behind their 
transactions. With so many varied and ever-changing techniques 
to move illicit funds, it is critical that we never become 
complacent or satisfied with yesterday's methods for 
identifying suspicious activity.
    With this in mind, I will highlight four particular areas 
for potential reform.
    First, the Treasury Department should establish priorities 
for the AML regime, which could in turn form the basis for 
financial institution supervision and examination. In turn, BSA 
reporting requirements should be rationalized to allow 
institutions to focus their resources on that which is most 
useful to law enforcement, as required by the BSA.
    Priorities should be based upon a data-driven review of the 
SAR and CTR submissions to determine what information is truly 
useful and whether that information could be provided to law 
enforcement in a more modern and streamlined fashion.
    It is difficult for financial institutions to know if their 
SAR and CTR filings are useful to law enforcement. Based upon a 
recent survey by The Clearing House members, a median of 4 
percent of SARs and less than one-half percent of CTRs result 
in any law enforcement contact after the filings. These numbers 
indicate that there may be a disconnect between how financial 
institutions are deploying their resources and law 
enforcement's priorities.
    Second, greater information sharing between law enforcement 
and financial institutions should be encouraged. Law 
enforcement has access to intelligence from many sources which 
can help financial institutions to provide better leads. For 
example, financial institutions can use such information as IP 
or Internet addresses, geographic locations and addresses, and 
information about suspected shell companies to develop targeted 
leads to identify potential suspicious activity.
    I have personally witnessed the improved speed, efficiency, 
and investigative results that can be achieved when banks work 
cooperatively with law enforcement. I think this should be the 
norm, not an anecdotal success story.
    Third, institutions should have the flexibility to explore 
innovative technological solutions to AML compliance, either 
individually or in concert with their peers. Illicit finance 
often moves between multiple financial institutions as criminal 
actors work to complicate and conceal their money trail. 
Therefore, financial institutions should be allowed to safely 
and securely share additional data with each other for the 
purpose of detecting suspicious activity.
    Finally, shell companies and front companies are often used 
to conceal the real actors behind illicit transactions. I 
support efforts to establish a nationwide framework for the 
collection of beneficial ownership information by a trusted 
Government body and to make that data available to law 
enforcement and qualified financial institutions.
    In conclusion, financial institutions are on the front 
lines of the battle to keep money launderers and terrorist 
financers from using the U.S. financial system to inflict harm 
in our communities, and we are committed to this mission. I 
applaud the Subcommittee's
interest in modernizing the regulatory regime to improve the 
effectiveness of the work we do as AML professionals.
    I thank you for the opportunity to testify, and I look 
forward to your questions.
    Senator Sasse. Thank you, Ms. Woodrow.
    Chip Poncy is the president and co-founder of the Financial 
Integrity Network. Thank you for being here. You have 5 
minutes.

 STATEMENT OF CHIP PONCY, PRESIDENT AND CO-FOUNDER, FINANCIAL 
INTEGRITY NETWORK, AND SENIOR ADVISOR, CENTER ON SANCTIONS AND 
                        ILLICIT FINANCE

    Mr. Poncy. Chairman Sasse, thanks so much, and I apologize 
to everyone for being late.
    Chairman Sasse, Ranking Member Donnelly, thank you for 
having me here and inviting me to testify. This hearing comes 
at an important time. The United States has one of the most 
effective AML/CFT regimes in the world. However, criminal 
organizations and others continue to exploit vulnerabilities in 
our financial system and in our anti-money-laundering regime.
    Such illicit financial activity increasingly threatens our 
national security, the integrity of the financial system, and 
confidence in vulnerable global markets. Our efforts to combat 
these threats have struggled to keep pace with three 
interrelated developments.
    The first of these is a significant expansion of money-
laundering predicates and corresponding AML responsibilities. 
Our AML efforts now encompass practically all forms of serious 
crime, including various types of fraud, drug trafficking, 
corruption, terrorist financing, sanctions evasion, and the 
proliferation of weapons of mass destruction.
    This expansion of money laundering has naturally led to the 
corresponding expansion of our broader AML efforts. We now have 
a comprehensive AML/CFT regime that includes and relies upon a 
complex web of key stakeholders, including Federal, State, and 
local authorities, the private sector, and international 
counterparts.
    Across governments, here and abroad, this includes law 
enforcement, regulatory authorities, national security, 
intelligence, and policymaking communities.
    Across the private sector, this includes not only banks but 
an increasing range of nonbanking financial institutions, 
financial service providers, and certain other gatekeepers to 
an increasingly complex financial system. This complexity 
requires clear AML/CFT governance that Congress can help 
direct.
    The second key development challenging our AML/CFT regime 
is the constantly evolving nature of the financial system. 
Particularly over the past generation, our system has become 
increasingly complex, sophisticated, and intermediated. Such 
heightened complexity and globalization have enabled greater 
access to our financial system for illicit actors.
    The third development challenging our AML efforts is the 
increasing reliance on our AML/CFT regime to advance an 
expanding set of national security interests. The financial 
transparency that we achieve through sound AML implementation 
is increasingly important. We rely on this transparency to 
apply sanctions and targeted financial measures, financial 
pressure campaigns against rogue actors. This is true with 
respect to criminal organizations, but also terrorist groups, 
corrupt elites, and hostile states.
    These developments present opportunities and challenges. 
The challenges are clear. As my written testimony explains, 
criminals and other illicit actors exploit the complexities and 
efficiencies of the globalized financial system in a variety of 
ways. Money launderers place, layer, and integrate criminal 
proceeds through cash-intensive businesses, formal and informal 
payments systems, capital markets, real estate, digital 
currencies, and virtually all forms of financial products and 
services.
    Terrorist groups continue to exploit our financial system 
to raise, move, and use funds in support of various terrorist-
related activity. Corrupt elites launder stolen assets through 
sovereign wealth funds, private banking accounts, and other 
services. Weapons proliferators mask illicit trade and payments 
through transshipment and front companies.
    Understanding the details of any particular scheme requires 
substantial subject matter expertise, expertise across various 
types of financial crime, as well as across different illicit 
groups and networks and the regions in which they operate. This 
is a substantial investment.
    However, virtually all forms of illicit finance seek 
anonymity, obfuscation, and appearances of legitimacy to escape 
detection. Anonymous companies and unregulated or 
undersupervised parts of the financial system continue to 
undermine our best efforts. These developments and well-
established vulnerabilities should guide efforts to strengthen 
our AML/CFT regime. AML reform should close critical gaps and 
strengthen our AML/CFT regime, including through the following 
actions:
    First, end the creation of anonymous companies in the 
United States.
    Second, strengthen oversight and supervision of vulnerable 
and unregulated financial sectors.
    Third, enhance the targeting of illicit financing networks.
    Fourth, clarify expanded information sharing between and 
among private sector financial institutions and Government 
authorities.
    And, fifth, encourage innovative approaches and the 
application of new technologies to buildupon our current 
foundation.
    My written testimony lays out more detailed recommendations 
that Congress should consider to enact these types of reforms. 
I would be happy to discuss these or any questions you may 
have.
    Thank you again for your time and consideration. Apologies 
again for being late.
    Senator Sasse.  Thank you. Thank you to each of you for 
your testimony and for being here.
    Mr. Lormel, let us begin with you. Could you give some 
specific examples of the way an organization like, say, MS-13 
specifically tries to avoid detection in the financial system?
    Mr. Lormel. Thank you, Senator. Groups like MS-13, so you 
look at the group itself, and they operate--I would look at 
them as a transnational group because they are certainly down 
in South America, and there is a presence here in the United 
States that is pretty big. So, traditionally, the gangs like 
MS-13 are not as
organized as some of the more traditional transnational
criminal groups. But, nonetheless, as I pointed out, they are 
going to have to use the system in certain ways.
    So one of the things that they do is they control a 
corridor or a channel, and a lot of illicit goods, drugs, human 
trafficking is going to come through that corridor up through 
Mexico into the United States. And so that is one of the things 
they will do. And what they will look to do then is they will 
set up either front companies or they have to get into the 
financial system. A group like that I would assume is also 
going to be heavily involved in the informal system and use 
hawalas or illegal money remittance. I think the illegal money 
remittance operation is one of the biggest problems we have in 
the United States in terms of not identifying who the illegal 
money remitters are. So I think there is going to be a lot of 
cash smuggling, bulk cash smuggling through those chains. But 
as these groups like MS-13 are maturing, they are going to have 
to have business fronts, and they are going to have to have 
access through the banks, and they are going to set up some 
type of front or operation so that they can avoid detection. 
That is the key.
    Again, following my flow chart, they are going to follow 
the pattern like that to get money in. And so as they get more 
sophisticated, they are going to have a CFO, and that CFO is 
going to be the one who is going to have that type of knowledge 
and ability. And make no mistake about it. As dangerous as they 
are on the street, they are going to have the capability and 
they are going to build an infrastructure that is going to make 
them that much more challenging to deal with.
    Senator Sasse. So your CFO point is almost exactly where I 
was going to go. I was going to sort of ask you if this is a 
fair hypothesis about how to typologize this. There are 
individual bad actors that meet the threshold of being cross-
border money launderers. There are large organizations that 
have a centralized structure. And there are large organizations 
that have a decentralized structure, I would assume?
    Mr. Lormel. Yes.
    Senator Sasse. And you are saying that the accounting 
inside an organization like MS-13 is pretty decentralized, but 
for your three steps, I guess after placement, from layering to 
integration, you just presume that an organization like that as 
it becomes more complicated, it has integration that will have 
sophisticated accounting. I am curious about how far-thinking 
the planning is about how you do that integration.
    Mr. Lormel. I am not sure I follow. How far----
    Senator Sasse. You said they are going to have a CFO.
    Mr. Lormel. Right.
    Senator Sasse. Talk us through what the step is right 
before that and who the planner deciders are that you would 
want sophisticated accounting versus decentralized money that 
flows through the middle.
    Mr. Lormel. So what you are going to have--and I think a 
good example of this, there was a drug gang in San Juan, the 
Menores gang or something to that effect, and virtually they 
had job descriptions, and MS-13 is going to have the same 
thing. So your street people are going to have their job 
descriptions, you know, whether they are drug runners, whether 
they are dealing with traditional organized crime, whatever 
that is going to be, and they will be compartmentalized from 
people in the more hierarchical sense of the organization.
    Now, one of the challenges you are going to have with a 
group like MS-13 is how independent and decentralized the 
different cells are going to be around the country and then 
when you go internationally. But at some point there is going 
to be more of a structured business. They will have a business 
model.
    I wrote a paper a few years back on the business model for 
a terrorist organization, and so I would look at that same 
thing, that same type of manual, and basically what is it they 
aspire to be and what kind of financing is it going to take to 
get to that aspirational level, and then how are they going to 
infiltrate the system to do that? And so that is important. 
That is, again, what they are going to have and what they are 
going to be doing, and so at some point that CFO or the C-
suite, so to speak, are going to be--they are going to have a 
more global macro picture; whereas, the different groups may 
have kind of a more limited micro picture.
    Senator Sasse. Thank you. Do the other two of you want to 
add anything on specific techniques that you see?
    Ms. Woodrow. Thanks. I think whatever the organization is 
that is trying to move the money, they are all moving it in 
similar ways, using similar techniques. The idea is to hide 
what you are doing, make it look as legitimate as possible.
    There was a recent indictment in the Southern District of 
Florida, and I thought it was an interesting case study in this 
where you had probably multiple illicit actors outside the 
United States based in Nigeria. They were committing frauds and 
schemes against American persons, and when those American 
persons would pay them, they needed to move their money back.
    So they used a complicated web of money mules and front 
companies in order to conduct transactions that looked, absent 
any other information, like legitimate transactions. So you 
might have a cash-intensive business that is receiving--that is 
depositing cash. If your business normally accepts cash, that 
could look routine and usual. They also had individuals that 
they had hired, probably through a work-at-home scheme, where 
they would solicit persons with clean records to use those 
persons to access their accounts, then move the money through 
that network to outside of the United States banks, generally 
in more friendly countries that have a high level of ordinary 
trade with the United States, and then finally to the illicit 
actors behind the whole scheme.
    And you see that pattern of obfuscation, so use of people 
who do not have records, who do not have negative news 
associated with them, in order to bring the money into the 
system and then move it around between what looks like 
legitimate business activity, but it is actually a front.
    Senator Sasse. Thank you.
    Mr. Poncy?
    Mr. Poncy. Thank you, Chairman. I completely agree with 
what Dennis and Tracy have said, and I am honored to be here 
next to them. They are real experts in the field.
    I would just add that the technique really depends on the 
type of predicate offense we are talking about. The cash-based 
predicates, like drug trafficking, the key challenge is how do 
you get that cash into the system. So you are going to have 
placement opportunities to disrupt, placement needs that invite 
opportunities to disrupt, and we have controls for that that we 
may not be fully exploiting. When you look at structuring 
activities, that continues to, to my understanding, light up 
the BSA database, and I am not sure that we have got enough 
resources to hit all that. So there are techniques that are 
tried and true and that will always be there around cash-based 
predicates.
    When you get to other forms of money laundering, 
particularly with fraud, the money is already in the system, so 
you are looking at wires, and you can say, well, it is third-
party wires or it is trade-based money laundering. The problem 
is the wire rooms in our banks are--the straight-through 
processing of the volumes of this are such that it is very 
difficult without advance intelligence to say this is the wire 
I am interested in.
    And so one of the ideas that we have been kicking around 
internally is to think through, much as we have expanded in 
trade finance the need for banks and financial institutions to 
look at trade finance documentation so that there is a better 
understanding of the related parties and the markets and the 
jurisdictions and actors that may be involved. We do not do 
that when we talk about wire rooms and straight-through 
processing because it would completely shut down the system.
    Are there messaging formats that would be friendlier in 
allowing us to run screens and continue to have straight-
through processing? Those sorts of techniques are innovative, 
and trying to adapt to the reality that as our money-laundering 
predicates have expanded past cash, we have to figure out a 
better way to preserve straight-through processing, at the same 
time get intelligence out of those systems that allow us to 
direct our resources.
    The final thing I would say is that no matter what the 
organization is, the prevalence and sophisticated money 
laundering and illicit finance of anonymous companies, 
gatekeepers, front or straw persons, correspondence, and then 
ultimately back to working into a target market like the United 
States is prevalent. And so you have U.S. financial 
institutions that are increasingly removed from the source of 
the risk. If it is placed in a foreign market through a nonbank 
financial institution, then it is corresponding into a local 
bank that then corresponds with a dollar clearer in New York. 
The New York institution has a very difficult time trying to 
understand that pathway. And in trying to understand that, 
without targeted intelligence, they are going to shut down the 
system to try to look at all this. That intermediation is a 
killer.
    Senator Sasse. Senator Donnelly.
    Mr. Lormel. Senator, if I may just one second, sir, going 
back, if I was investigating and were looking at MS-13, one of 
the things I would be looking at from an enterprise-wide 
standpoint, having an enterprise-wide investigation, would be 
to see if they were using funnel accounts. Basically if they 
are operating in different regions, do they have some type of 
funnel account operation where money is funneled through one 
account to a central account? And that is what I would be 
looking for, and that is what I would be looking for in 
suspicious activity reports and, to a degree--well, CTRs would 
not have that, but certainly I would be looking for patterns on 
all of those things. But the funnel accounts would be my 
starting point.
    Senator Sasse. Thank you.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Although the United States has a strong anti-money-
laundering framework, authorities have one hand tied behind 
their back due to lax business ownership transparency. Many 
reports have concluded that the United States is among the 
easiest countries to create an anonymous shell company. As a 
result, criminal networks, corrupt dictators, and even 
terrorists have been able to move money through the United 
States as a legal business entity. Law enforcement officials 
often have great difficulty identifying the beneficial owner. 
This is deeply alarming, especially since illicit proceeds from 
crime total as much as $300 billion or more in this country, or 
2 percent of the economy, according to the DEA and other 
estimates. If we cannot identify the bad guys, that means more 
drug trafficking, human trafficking, arms trafficking, and 
fraud.
    Mr. Lormel and Mr. Poncy, could you please describe how 
criminals exploit these shell companies and the lax corporate 
transparency rules to evade AML detection?
    Mr. Lormel. Thank you, Senator, and I am glad you brought 
that point up, because when I finished, I am remiss because I 
did not state that I wanted to mention there were four areas 
that we needed to look at, and beneficial ownership is one of 
them.
    The other thing is I am concerned about, as an aside, 
raising the thresholds on SARs and CTRs. I think that would be 
problematic. I think we need to have better feedback 
mechanisms, and I think we need to look at the regulatory 
requirements versus regulatory expectations.
    But in my written statement, sir, I did give a case study 
or a case example of the Alavi Foundation. Our sanctions have 
done a really good job against Iran, and so Iran has to get 
into the financial services industry. They have to get into 
that, and they use shell companies. And they have been very 
good at that, and a classic case is they owned a building in 
New York on Fifth Avenue through a bunch of front companies, 
and it took the Government quite a long time to work around 
that.
    I know when I was in law enforcement, when you came into 
that shell company environment and trying to work through who 
is really pulling the strings behind that shell, and I would 
think--to Senator Sasse's question about MS-13, I would be 
looking for shell companies there. But that Alavi Foundation 
with Iran is a classic example of the use of shell companies by 
a foreign power, and certainly, you know, they are doing that 
quite a bit. And just, again, it demonstrates the success of 
our sanctions.
    Senator Donnelly. Mr. Poncy?
    Mr. Poncy. Thank you, Senator Donnelly. I could not agree 
more. I think it is becoming increasingly clear that the 
biggest threat to our anti-money-laundering and counter-illicit 
financing
efforts is the threat posed by anonymous companies. Several of 
those are created here, and there is plenty of testimony and 
evidence to support that illicit actors continually use U.S. 
anonymous companies or companies created in the United States 
in particular because of the perception of legitimacy.
    I can recall when I was at Treasury and certainly in my 
private sector experience, where we see money-laundering-
related accounts pretty far away from the United States, held 
in the names of U.S. companies, that provides a veneer of 
legitimacy and behind which there is no accountable person to 
hold responsible for the activities of the company.
    The comments that I would have--and these are elaborated on 
in my testimony--are first that anonymous companies are used 
across every possible form of fraud in financial crime. That is 
clear. Whether you are talking sanctions that are 
jurisdictional against Iran, that are targeted against drug-
trafficking organizations, or you are talking about various 
predicate offenses to money laundering, anonymous companies are 
used throughout. That is the first point.
    The second point is that what we see in our cases, and 
whether in the Government or what we see in the private sector, 
is a fraction of what we do not see, and this is what is so 
frustrating. I think the notion that, you know, that we see, to 
your point, a fraction of the 2 percent or 5 percent or 
whatever the estimate is of illicit finance that people can 
peg, what we are looking at may not even be statistically 
relevant, which raises the question of where are all of these 
bad actors and these illicit assets? And if we know out of the 
evidence that we have that we cannot track and trace anything 
through an anonymous company, it is pretty clear that getting 
transparency over that technique or mechanism is essential to 
turning the lights on, and particularly when we have gone out 
to financial institutions appropriately and said, ``You need to 
look through the legal entity accounts that you open and make 
sure that you understand the beneficial owners.''
    It is very hard for them to do that when the very 
authorities that are telling them to do that are creating the 
anonymous vehicles that present the problem.
    Senator Donnelly. Let me ask one more question this round, 
and it would go to something that Mr. Lormel mentioned. The 
Iran-owned Manhattan high-rise is not the only example of high-
priced real estate being used for money laundering. According 
to recent reports in the media and geographic targeting orders 
from Treasury, it appears foreign money is frequently used in 
all-cash purchases of expensive properties.
    What are the AML risks of huge cash transactions in real 
estate? And how can we better identify those transactions? Ms. 
Woodrow, if you would go first, and then around the horn, so to 
speak.
    Ms. Woodrow. Certainly. Thank you. Well, real estate, 
particularly in very high value markets, such as, for example, 
Miami and New York, is an advantageous area to invest in, both 
from an ordinary investor standpoint as well as from a money 
launderer's standpoint. You have the ability as a money 
launderer to invest a large sum of money in a single asset. 
That asset can grow in value and also can be transferred.
    Particularly in areas where there is a high velocity of 
turnover, you can also kind of get wrapped up in the rest of 
the legitimate activity and be less conspicuous.
    Real estate is often also purchased in the names of LLCs or 
trusts for very ordinary purposes, and money launderers are 
able to use those same tools, those LLCs and those trusts, to 
purchase the real estate and hide who they really are behind 
it. This is where the gatekeepers come in.
    So, ordinarily, money launderers are not going to try to go 
to a bank and get a mortgage to pay for a $1 million high-rise 
apartment because we are going to do due diligence, KYC, as 
well as credit underwriting. They are going to try to buy the 
property in cash or through a check or a wire. Those proceeds 
tend to go to gatekeepers, such as real estate agents, 
attorneys, title companies to hold the money while the sale is 
pending.
    That is the place where a bank may see the transaction. The 
difficulty is those gatekeepers have escrow accounts where they 
are holding all kinds of money for all kinds of different real 
estate transactions. But that is where we might be able to 
detect something is happening. Otherwise, the transaction is 
going on without the use of a financial institution.
    Senator Donnelly. Maybe we can get back to this later. 
Thank you, Mr. Chairman.
    Senator Sasse. Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman.
    One of the concerns that I have, obviously, is economies of 
scale. If you are a large financial institution, you can have a 
fairly robust plan to protect our financial system from 
nefarious financial transactions. But if you are a small bank, 
if you are a regional or a small bank, it just gets tougher and 
tougher, and these regulations are among their top concerns.
    And so I guess I want to maybe get some advice from all of 
you on how we can better resource our regional banks and our 
community banks and our credit unions to accomplish the 
purposes that we know are essential. And so we will start with 
you, Mr. Lormel.
    Mr. Lormel. Well, that is certainly a challenge. One of the 
things that I am a big advocate for are working groups and 
information sharing and partnerships. So to the extent we can 
improve the information sharing, especially down at that level, 
so what you have, Senator, are going to be kind of working 
groups. There are national working groups, and certainly the 
smaller banks are less inclined to be involved in those. So it 
is at the grassroots level. It is at whatever jurisdiction they 
are in and in their cities and things, is to work with--to get 
involved with the working groups for law enforcement, because 
you have to leverage--as you pointed out, they have limited 
resources. So how do you leverage those resources? And for me 
that is partnering and getting into a better sense of sharing 
information to the extent that you can.
    But I am also a big proponent--and I have written about 
this in a couple of articles--of kind of like a SWAT approach, 
in a sense. Even in a small institution where you have limited 
resources, it is taking the extra step, and if you make the 
analogy of a law enforcement SWAT team, for instance, they have 
primary responsibilities and SWAT is their secondary or 
collateral responsibility. So when you go back into the 
institution here, you take one person or a team of people to 
the extent that you can build it and have them specially 
trained.
    One of the things that I am really impressed with with 
bankers is the commitment, and you talk to Tracy and their 
staff, as to how dedicated they are to what they are doing. So 
it is to be really familiar with a lot of these issues, and 
issues particularly that would hit their bank and to be able 
to, again, leverage your resources and capabilities and 
responding and prioritizing to things.
    Senator Heitkamp. I think that would not exactly give them 
any comfort.
    Ms. Woodrow?
    Ms. Woodrow. Thank you for asking that question. As a 
representative of a regional bank, I certainly feel that 
pressure. And there is so much of a difference between the very 
large money center banks and the community banks, credit 
unions. We are all subject to the same law. We all have to 
follow the same regulations. But the ability, the 
sophistication, and the resources are very different.
    I think that is one of the reasons why I feel it is 
important that we allow banks of all sizes to experiment and to 
collaborate with each other. So, for example, small banks, 
community banks, and regional banks could get together and 
collaborate on activities, collaborate on resources and 
technology, rather than going it alone. And to do this, it is 
important to make sure that we have that flexibility both from 
a regulatory perspective and an examiner perspective, that they 
are willing to allow us to do that, and from an information-
sharing perspective so that we could pool our resources and I 
think be much more effective.
    Senator Heitkamp. Mr. Poncy?
    Mr. Poncy. Thank you, Senator. It is a great question and 
one that we debated a lot when I was in Government and continue 
to see in the private sector.
    The first answer, which you probably heard and deserves 
some more color, is this is the risk-based approach. So if you 
are a small thrift or a community bank, you do not have the 
same risks as a dollar-clearing money center bank. But you 
still have the responsibility to understand the risks 
associated with your customers, which if they are local you are 
going to know them better, the products and services that you 
offer, which, again, they would be fairly straightforward 
banking products and less esoteric financial instruments, and 
the markets in which you are transacting. You probably do not 
have correspondent relationships with Kerplakistan.
    So that should inform a targeted approach to risk 
management that is very different for a local community bank 
than it is for a global bank. That philosophical understanding 
breaks down often in practice because it is challenging. And so 
the first point I would make is that in implementing a risk-
based approach, there has to be more training--more training 
about what a risk-based approach means, what the determinants 
of risk are across customers' products, services, and markets, 
and how those risks are evident in certain local communities in 
ways that are vastly different than other places. That is the 
first point.
    The second is that with respect to managing those risks, 
there should be greater attention and prioritization over what 
we call ``utilities'' or ``consortium.'' So take training as an 
example. Why isn't training provided in a regional platform or 
a community bank platform in a more accelerated fashion? This 
is an area where community banks can pool their resources to 
get an education on this, and, again, something that we are 
working on.
    Another way to think about utilities is operational. Dennis 
mentioned, and I fully agree, we have talked for years around 
taking the Bank Secrecy Act Advisory Group, which sits at 
Treasury, as basically a central policymaking group exempt from 
FACA, and localizing those around prosecutor offices and 
saying, Why don't we have local SAR review teams meeting on a 
regular basis with the filers in that community that help those 
community banks understand this is what your local 
investigators are seeing, this is what your prosecutors are 
interested in? It creates much more of a public-private sector 
partnership. So the utilities are a second idea.
    The last one just looks at shared risk management as a 
principle. This gets to Senator Donnelly's point about real 
estate. It is very difficult for community banks to absorb all 
the responsibility of risk management when a lot of those risks 
are coming through financial service sectors that distance the 
bank from the underlying risk. Almost every bank I can think of 
has escrow accounts, to Tracy's point, whether it is for real 
estate or for law firms or for other purposes. And we see money 
laundering through those accounts.
    There is a case in my testimony that is literally 
incredible about over $300 billion that were laundered through 
a top law firm in the United States, an escrow account, to buy 
real estate on behalf of the alleged, under DOJ's civil 
complaint, the former Prime Minister of Malaysia. That is an 
astounding case. That is an astounding case. How does that 
happen at a top bank and a top law firm? Because we do not have 
controls on those sorts of intermediary accounts. Community 
banks do not have that exposure, but they have those types of 
accounts that can introduce it.
    So that is a shared risk management responsibility that 
requires banks to--or, sorry, requires authorities to give 
banks some relief by sharing that risk management 
responsibility with others that introduce that risk.
    Senator Heitkamp. I think just speaking from a position as 
a former law enforcement officer, I think you would have a hard 
time convincing law enforcement officers and prosecutors to 
share intel more broadly to nonlaw enforcement folks, and that 
creates a real challenge because you want to avoid the subpoena 
that is going to tell you you did something wrong, but law 
enforcement is not going to want to broadly broadcast, you 
know, what they are currently looking at and where they go.
    If I can just get a few more minutes, I want to talk about 
artificial intelligence. There has been a lot of talk about 
whether artificial intelligence is going to be the great 
equalizer. It was interesting. During a Banking hearing 
recently, I made the claim that perhaps on compliance burdens 
it will, again, skew to the larger banks. And, actually, a 
regional bank officer who was testifying said, no, she thought 
that it might actually bring costs down and allow you to 
balance, depending upon what product is out there that is going 
to provide that kind of compliance check.
    So if we looked at--you know, this is a function we are 
asking banks to take on for the betterment and the security of 
our country. It is not something that, you know, is part of 
their business model, but it is a critical component of making 
sure that we are safe and secure. And so when we look at 
artificial intelligence, does it make sense to look at products 
which can be deployed and look at shared costs for that kind of 
technology that will lower costs for smaller financial 
institutions but achieve a better result consequently? Mr. 
Poncy?
    Mr. Poncy. Senator, you are hitting on, I think, one of the 
most exciting ideas in AML in a long time, and I agree with 
everything you said. I would just point to the relationship 
between the potential of these new technologies to include 
artificial intelligence and the need for data. The data that 
you need to drive AI systems so that you have real fidelity in 
the results and understand that this is a bad apple and this 
one looks like a bad apple but it is actually legitimate 
requires pooling of information at the moment, is constrained 
by information-sharing restrictions or ambiguities. There is a 
section in my testimony--and I know we have talked about it in 
other places--about the need to clarify and strengthen 
information-sharing allowances, if not requirements, so that 
financial institutions can do exactly what you are saying, that 
they can take their transactional information, their customer 
information, their counterparty information, throw it onto a 
platform with the right kinds of controls around it, where 
these types of artificial intelligence systems can exploit that 
data to learn what good looks like and what bad looks like. 
Once those models are established, those can be migrated to 
other platforms.
    We do not know enough, frankly, at least in my view, to 
know what is the best way to do this, but clearly the next step 
is to encourage pilots around these sorts of enterprises, and 
that can be done with stronger information sharing allowances 
or requirements and incentives to banks and others to play.
    Just two more points because they are related. One is if 
you think about this from a bank perspective, if you are the 
general counsel of a bank and you hear this conversation, you 
can think this is really exciting, we should do it. But what 
happens if I put my information into that platform because I 
want to do the right thing, and then there is an investigation 
stemming from my voluntary or at least my proactive approach to 
compliance and risk management that all of a sudden exposes my 
bank to an enforcement action? I cannot do that as a general 
counsel in good faith as a fiduciary to my institution, create 
that exposure. So what kind of downside protection are you 
going to give me? We cannot give safe harbor. We have all been 
there before. But we can be creative in thinking about 
protections that incentivize institutions by giving them 
downside risk management.
    On the upside, if I am going to be putting my information 
into this platform and dedicating analysts to that, do I get 
any credit for that? Because that is not necessarily in my exam 
manual. It is not necessarily part of my exam process. And 
these are resources that have an opportunity cost.
    So if I am playing in that space, what sort of credit do I 
get for that? I know that sounds petty, but it is not, because 
if you are sitting there running these programs, you have to 
make these choices, and this is where congressional direction 
can really help.
    Senator Heitkamp. I do not think it is petty. I think that 
we are asking banks and financial institutions to perform a 
function that does not add any value to them but adds value to 
the country and the security of the financial system as a whole 
but also the security of our country against human traffickers, 
against money launderers, you know, the whole nine yards.
    So a tough topic, but I am really concerned about what is 
going to happen to our small community banks as we have put 
more and more regulatory burden on them, more regulatory burden 
and a high-risk regulatory burden.
    Thank you, Mr. Chairman.
    Senator Sasse. Thank you, Senator.
    Let us go back to this question from the beginning of 
Senator Heitkamp's questioning about the feedback loops. And, 
Ms. Woodrow, you talked about this in your opening statement, 
your stat that only 4 percent of the time do SARs ever result 
in the bank hearing anything back. Can you unpack that a little 
bit? A, how do we know that? And then, B, let us move toward 
best- and worst-case scenarios about what, say, regional banks 
understand about what is happening on the other side of their 
regulatory filings?
    Ms. Woodrow. Certainly, Senator. Thank you. Anecdotally, we 
have always heard from our peers that very few SARs result in 
law enforcement getting back to the bank in any way, whether it 
be through a subpoena or a request for SAR backup 
documentation. So through The Clearing House, we decided to get 
some data, and we took a poll of our membership, and I also 
contributed to that. And that is where we got the 4 percent 
number, and that was consistent with what I was seeing as well.
    What we find are that it is very seldom that we do get 
feedback. Now, sometimes we do get direct feedback if law 
enforcement is able to use our investigation to successfully 
pursue a criminal conviction. I have to say law enforcement is 
incredibly grateful to that effort, and we have had great 
responses from the FBI, from local law enforcement, from the 
U.S. Attorney's Offices, and we relish that feedback and are 
able to use that to go back and talk to our staff about, OK, 
this was what we saw and we thought it might be suspicious, and 
here is what law enforcement had to say about it. So that is 
hugely important to us.
    And, also, those communications with law enforcement as to 
what they are seeing, there is a communication that the 
district attorney of New York provides. They had a meeting and 
provided us with some IP addresses where potentially terrorist 
financing activity was occurring. We were able to take those IP 
addresses and run them against our bank's systems to see if any 
of our customers had accessed their accounts in those 
locations. That triangulation of information is so incredibly 
pertinent to what we do and allows us to really shift through 
the millions and millions of transactions that we are dealing 
with on a yearly basis. And, you know, the bigger the bank, the 
more that becomes a challenge.
    Senator Sasse. It seems to me that those feedback loops 
matter for three reasons. You are leading 300 people, is that 
what you said, in your organization?
    Ms. Woodrow. Yes, over 300.
    Senator Sasse. If they are just sitting on the other side 
of a black box doing a regulatory job as opposed to feeling any 
connection to a larger mission with law enforcement and for the 
social good, if they do not have any sense of whether or not 
their work matters, they are inevitably going to be less 
innovative in trying to figure out ways that this next 
generation of more data, enhanced data-saturated world is going 
to have some of you all giving new ideas about how this should 
happen, but also aiding law enforcement in the case of those 
current investigations, which are complicated, but where you 
may know IP or specific computer locations of these 
institutions.
    Mr. Lormel, on the FBI side, so when you were at the Bureau 
running this section, can you give us a perspective on is there 
more information that the 300 folks reporting to Ms. Woodrow 
could be supplying to you if those feedback loops were tighter?
    Mr. Lormel. Absolutely, yes. And one of the things, when I 
ran the Financial Crimes Program at the FBI, I met frequently--
and, beyond that--I started the terrorist financing operations 
at the FBI, and particularly after 9/11, I met on a very 
frequent basis with Jim Sloan, who was then the Director of 
FinCEN, and Jim and I would sit for hours and have this 
discussion about what can we do to put a feedback mechanism in 
place that is consistent.
    In my written testimony, I give you some examples of some 
of the working groups, and on those working group levels, there 
is tremendous feedback. But this is a significant issue, and it 
is a significant problem. And if we could put a consistent 
feedback mechanism where there is an automatic feedback loop 
back to the financial institution, I think there is tangible 
and intangible value there. Certainly the tangible value is 
what benefit they are going to get, but also the intangible. I 
think if I were able to contact FinCEN and say, hey, your SAR 
did this, this, and this, those folks who do that, their morale 
is going to be a lot better because they are going to have a 
better sense of accomplishment. And I made the comment before 
and I really means this. One of the things that--I really enjoy 
working in this space with people like Tracy because they are 
very dedicated, just like we were in law enforcement, and they 
really want to do the right thing. And the more we give them 
that ammunition and if we can put that feedback mechanism in 
place, I think that would be one of the biggest benefits to 
anything we can do to enhance the BSA.
    Senator Sasse. Thank you.
    Mr. Poncy, I am going to ask you about this as well, but I 
am going to defer to Senator Donnelly first, but in my next 
round I will come back to you.
    Senator Donnelly. Thank you, Mr. Chairman.
    I wanted to ask you about virtual currencies, which are an 
alternative to cash that criminals may use for illicit 
transactions. Bitcoin, Ripple, and Etherium provide anonymity, 
are lightly regulated, with limited AML controls. This is to 
everybody. To what extent do you believe criminal networks, 
terrorist groups, and rogue nations utilize cryptocurrencies as 
a means for moving money anonymously?
    Mr. Lormel. I will start out on that. I think the more 
these systems mature, the more they are going to be used. I 
think on the front end--I have listened recently to some law 
enforcement presentations, and law enforcement feels pretty 
comfortable, especially with Bitcoin and the blockchain, that 
they can identify transactions, and so there is a deterrent 
there by virtue of that, and I think there are some good cases 
out in California on that. But the more comfortable they get in 
that space and the more that they can get around and create 
anonymity or a sense of anonymity, you are going to see more 
and more of that activity happen. And if you liken Bitcoin and 
virtual currency to regular currency, to cash, the more 
comfortable the bad guys get with that and the more cash-like 
they think and act, the more they will use this as a case.
    There was a case in New York, and I apologize, I do not 
recall the girl's name. She was recently arrested in New York 
as a sympathizer and providing material support to the Islamic 
State. She was a healthcare worker, and she went to Syria, and 
she wound up teaming up with the Islamic State in some camps 
over there using the facade of aid. But my point is when she 
came back to the United States, she committed all types of 
credit card frauds and things, and she purchased Bitcoin, and 
she used the Bitcoin to--she used the Bitcoin, and she 
converted the Bitcoin back to cash, and she sent that money 
over to Syria. And the FBI has made a good case, and I speak 
about it because I know that she has been indicted, so there 
are charging documents there.
    Ms. Woodrow. Thank you. Bitcoin is something--and other 
virtual currencies--that we have been looking at a lot over the 
last year. We did notice amongst our customer base that the 
transactions between customers and Bitcoin brokers had 
increased quite substantially, particularly in the later half 
of last year. So trying to sort out which of those are just 
ordinary transactions done by ordinary people, either because 
they are interested or because they think it is a good 
investment or whatever their purpose, from those that are 
listed is particularly tough because we lose a little bit of 
the trail once it goes into the distributed ledger, because we 
are not seeing it. We can see very clearly sometimes when there 
is money movement between financial institutions, a little bit 
different on the virtual currency side.
    Virtual currency brokers in the United States are deemed to 
be money services businesses by FinCEN, so they should also 
have an AML program as well as Know Your Customer. The 
difficulty is those that are operating outside the United 
States. And, remember, this is a virtual environment, so 
maintaining jurisdiction over the actors is a real challenge. 
They could be literally anywhere on the planet. But it is 
something that we are seeing more of. I certainly am familiar 
with dark web websites where you buy literally any type of 
illicit good or service you can think of. Those are almost 
always transacted in virtual currencies.
    Senator Donnelly. OK. Let me ask you a different question, 
Mr. Poncy. If CTR/SAR thresholds were increased above current 
levels, how do you think that would impact law enforcement and 
their investigations?
    Mr. Poncy. Thanks, and Dennis is the best person I know to 
opine on this, but----
    Senator Donnelly. He was going to be next.
    Mr. Poncy. OK, good. I am going to take a little bit 
different direction, but it is consistent, I think, with where 
Dennis is thinking. To me, raising thresholds is sort of a 
derivative question to the primary issue of how do you get law 
enforcement access to more data and how do you do that in a way 
that is less costly to financial institutions, because that is 
what is really going on here. Reports are expensive, and you 
have industry that continuously is saying, look, you know, 
inflation rates have gone up, and our SARs are going through 
the roof, and this is all expensive, and how are you using 
this, and can we get some relief here. That is the 
conversation, and law enforcement is saying the more data the 
better because financial information is becoming increasingly 
important to everything we do. And so we do not want to do 
anything that is going to turn off the pipe because we do not 
know which data you have that may be relevant to what we are 
looking at now or what we are looking at down the road, so do 
not turn anything off. And both sides are right, but there is a 
solution for both, which is given the current technologies that 
are coming online, we can collect and manage and analyze bulk 
data better than ever before.
    So if you imagine a scenario where we have straight-through 
processing of bulk data coming in to FinCEN or the BSA which 
Congress required us to study in 2004, 14 years ago, on cross-
border wires, all cross-border wires going into this database, 
law enforcement would love that, to see anybody who is sending 
money into the United States or getting money from the United 
States. That is a huge data set. And building that sort of 
straight-through processing certainly is expensive, but once 
you have that done, imagine that the business as usual expense 
of that is significantly less than processing individual 
transactions and making determinations of whether to file this 
or not, just get it in.
    The second way to think about accelerating data access for 
law enforcement and reducing costs for financial institutions 
is to do what other financial centers have done, which, in 
addition to doing cross-border wire reporting in bulk form, is 
to think about reporting all accounts. If you have a customer 
account, send an account-opening form to FinCEN and have that 
form--if you have got that information as law enforcement, a 
lot of the need for additional data is addressed, and then 
these conversations get----
    Senator Donnelly. I apologize. I have limited time. I have 
to pass it to Dennis and then back to the Chairman.
    Mr. Lormel. Thank you, Senator. What Chip is saying--and I 
like those ideas--I think that is a long-term look. In the 
immediate term, I am a firm believer that we cannot raise the 
SAR threshold or the CTR threshold. I think the information at 
that level right now is invaluable to law enforcement.
    Senator Sasse gave me the example of let us talk about MS-
13. I would think if we were able to go back and do a study on 
that, you are going to see a lot of CTRs. You are going to see 
suspicious activity reports. And I can go back to when I was in 
the Bureau, Zacarias Moussaoui, when I ran the Terrorist 
Finance Operations Section, he came into the United States, he 
had $35,000 in cash on him when he came in. And Jeff Breinholt 
is sitting here, who I worked with at the Department of Justice 
at the time, and we were shocked that he actually filed a CMIR, 
or he filed the appropriate papers with Customs coming into the 
country. But then he went and withdrew money from--cash out of 
a bank account, $14,000. That is intelligence that we would 
lose if we raised that threshold to $30,000.
    You know, I realize that we are talking about a smaller 
percentage, but people like that are so dangerous. And so I 
think--and I think you really need to task law enforcement to 
give you some statistics on this. I talked to the Bureau when I 
was coming up here to testify. I was able to talk to my former 
counterparts who took my positions, and they are firm believers 
that we need the threshold at that level. And I will certainly 
defer to them in terms of their ability to give you the proof.
    Senator Donnelly. OK. Thank you, Mr. Chairman.
    Senator Sasse. Thank you, Senator.
    Let us stay here a little bit, and I think there is 
probably a debate that is worth teasing out. Maybe a few 
distinctions for some rookies.
    So there is cross-border stuff. There is intra-U.S. stuff. 
There are small organizations and large organizations. And then 
there are cases where we have some reason to be suspicious 
versus mere quantification. Maybe there is no distinction that 
is worth drawing here, too, which is a lot of this we are 
thinking about because of the regulatory compliance burden of 
data that may not ultimately be used, and then there is a 
separate conversation which is about personally identifiable 
information and the fact that building a big database in a 
world where, let us face it, we, public sector and private 
sector, are pretty terrible at cyber defense right now. And so 
the bigger database you create, the more that is going to be a 
target for future hacking, and we have seen that with Equifax 
and others, and you have seen obviously the reports today that 
many people in the intelligence community have known about for 
some time, but the Chinese hack of OPM 3 years ago, now we see 
specific records of that showing up in financial fraud today 
that abused personal information.
    So there are a whole bunch of distinctions there, but it 
seems like one question that is worth teasing out is of the 
$10,000 threshold--and I think this was set in 1970. Is that 
right? So the inflation-adjusted view of that would be $65,000, 
$70,000 today. If we did not have that--and obviously we have 
lots of small financial institutions who do not want to be 
doing these reports right now. I think one of the critical 
questions we should be asking is how much of the information 
that is between that $10,000 and $65,000 threshold that comes 
in from small institutions is actually used. What do we know?
    Mr. Poncy. I think you have got a great handle, Senator, on 
these issues that are----
    Senator Sasse. You are not technically under oath, but 
lying is still ill advised.
    [Laughter.]
    Mr. Poncy. You have teased out exactly all the difficult 
debates around what appears to be a fairly straightforward 
question. There is just one additional one I would add. In 
terms of that delta of between $10,000 and $65,000, what is 
relevant? I completely agree with Dennis that there needs to be 
a study of--because that is discoverable, right? That is a 
discoverable question as to the value of that information, 
which I know Treasury has, with law enforcement, I think, 
released some sort of an RFP or study to try to get their arms 
around this. But we need that data.
    The additional issue that I think is important to recognize 
is that while the inflation threshold would jump dramatically 
to the mid-60s, there is also a very different role of cash in 
today's economy, particularly in the United States. So it is a 
bit of an offset in the sense that who is placing $10,000 in 
cash these days and why? Right? I mean, take your traditional 
laundromats--no pun intended--restaurants, gas stations, et 
cetera. I remember as a kid--and this is obviously a small 
sample size, but you paid cash wherever you went on this sort 
of stuff, or maybe a checkbook. Everyone has a credit card, 
right? And you are doing Apple Pay and other things. Who is 
depositing $10,000 of cash and why? That is a more important 
question now than it was in 1970 by a long shot.
    So it offsets that immediate instinct to look at the 
inflation threshold and go there because cash is more rare now 
and is a bigger marker than it used to be, in my view.
    Senator Sasse. Please.
    Ms. Woodrow. I would love to address the cash question. So 
I think one would assume, based upon, you know, how we 
transact, we are using our credit cards all the time, that cash 
would not be as prevalent, and it is something that every year 
I have to do a risk assessment for my institution and figure 
out where are the products and services and areas where I want 
to focus my effort. And so I looked at the use of cash over 
time, and what I saw was something interesting. Cash deposits 
and withdrawals had only gone down by 4 percent over a 4-year 
period, which was much less than I had thought. Businesses are 
still using cash, whether it be small businesses that are 
operating on close margins, they just do not have the time to 
wait for a check to clear, or they do not have the technology 
to accept things like PayPal and others, or, you know, bars, 
restaurants, et cetera, still a very cash--at least in my 
institutions, still a lot of cash.
    What we also saw was that ACH transactions have gone 
through the roof, so particularly with the person-to-person 
payment applications, the Venmos, PayPals, and other types of 
work.
    So I still think cash is an issue. In my own institution, 
we file over 120,000 CTRs a year. Now, most of them are 
straight-through processed, so I would not consider it my 
biggest concern from a resources standpoint, but not all of 
them are. There is some manual intervention.
    The SAR threshold, it is $5,000, if you know who your 
suspect is. It costs, for each investigation that results in a 
SAR, anywhere from a few hundred dollars to a few thousand 
dollars. And that is whether you are filing a SAR on a $5,000 
transaction, a $100,000 transaction, or a $1 million 
transaction. So I think it is important that that analysis be 
done of what are the SARs and CTRs that are being used, and for 
those which are not being used very much, can we think about a 
more efficient way of providing information to law enforcement 
that is not this heavily manual process that is meticulously 
examined, has to be meticulously documented every time?
    Senator Sasse. I have follow-up questions, but I want to 
let Mr. Lormel get in.
    Mr. Lormel. Just one comment, Senator. I think, as I 
mentioned a little earlier, to me one of the biggest problems 
we have in the financial services industry are the illegal 
money remitters that are operating as the ice cream shop or 
some grocery store or whatever, and they are actually involved 
in illegal money remittance. That is where you are going to see 
a lot of cash transactions. And I think in those, if I were 
still running the Financial Crimes Program, I would be looking 
to do a special where you had kind of a nationwide takedown of 
these--to promote awareness to the nature of this problem, I 
think, you know, from what I had seen. And we went back--and 
this goes back to when I was in the Bureau. This is a 
consistent problem, and it was interesting when Tracy said that 
she has only seen a decline of 4 percent in cash. That tells me 
that those illegal money remitters are still up and running and 
flourishing.
    Senator Sasse. I want to let Senator Donnelly have the 
floor back, but just one quick one that I am sure is not easy. 
You are good? OK. Then how big--what is the shape of the curve 
in our assumptions about who the money launderers in America? 
If we had a 35,000-foot view at FinCEN or at the Bureau and we 
could rank-order the biggest money launderer in America to some 
mom-and-pop, you know, illegal lemonade stand, do we think that 
there is an 80/20 curve that the big guys are a really big 
share of this? Or is most of it small and medium size? That 
would drive the way we would actually do our analysis in our 
fusion centers.
    Mr. Lormel. That is a terrific question, and the FBI in the 
last couple of years, they stood up a money-laundering unit 
again. When the financial crisis came, they disbanded that 
unit, but they have got that up and running. And one of the 
things that they are targeting, Senator, are the facilitators, 
the money-laundering facilitators. We started the hearing, and 
I joked about not being a money launderer. But, quite frankly, 
there are a lot of people like me out there who do this, and 
they facilitate. And Tracy talked about the gatekeepers.
    And so what the FBI is doing is they are targeting that 
level, so that is a high level of people, and one of the 
challenges we have societally is that you are going to see 
those money launderers at all those levels. But, clearly, there 
are a level of more advanced and more sophisticated money 
launderers.
    Senator Sasse. Thank you.
    Mr. Poncy. Thank you, Senator. Again, great question. My 
last few years at the Treasury Department, we had a team that 
was focused on what we called ``3PML,'' third-party money 
launderers, to get to exactly your question. Is there what I 
would chronically call a ``Keyser Soze of money laundering'' 
that we do not see? Or is this happening where every criminal 
enterprise just self-launders because it is easy and they do 
not want to pay a premium for it? You know, how does this work? 
And at least in my experience and what I recall is that there 
really was not good data on this.
    So we pushed really hard with the interagency through a 
number of law enforcement and intelligence agencies to stand up 
efforts to try to understand 3PML. What we found--and it is 
frustrating--is that sophisticated investigations that are 
inevitable with any third-party money laundering, a guy who is 
good at this and is worth chasing, he is not going to stay here 
very long. So those investigations tend to be the ones that are 
thwarted, and so that is why our data is not that great.
    If you start to really examine the incentives for 
investigators, for prosecutors, for analysts to pursue those 
investigations, those incentives go downhill real fast, because 
the minute that you see you have got an investigation that is 
going to take years, take you to three jurisdictions that do 
not do what we do, if they do they will not give you the 
information, if you get there they will already be gone. You 
realize it is an expensive investigation, chewing up resources, 
opportunity costs and predicates, there is violent crime in 
your district right now, those are cases that just are 
difficult to make.
    And if you then look at metrics that law enforcement is 
considering, arrests, indictments, confiscations, prosecutions, 
sentencing, et cetera, these metrics, right? They do not stack 
up to incentivize those sorts of investigations.
    So I will defer to Dennis all day on this, but it was very 
clear to me that we did not have the type of dedicated funding 
for sophisticated financial investigations that we would need 
to answer that question with confidence, and one of the 
recommendations I have in my testimony is to create protected 
resources for the law enforcement community to stand up, 
dedicated units to go after third-party money laundering, with 
prosecutors, with investigators, with travel budgets, that 
allow them to start to answer that question in a systematic 
way.
    Senator Sasse. We have a series of votes coming up, so we 
are going to have to wind up in about 10 minutes. But before we 
ask the sort of King for a Day questions for you all to go back 
through your top three recommendations about what you would 
like to see happen, could we unpack just once more our theory 
about how much of this money is cross-border? Of everything we 
care about, if we were much better at seeing money that moved 
in and out of the United States, does that solve most of our 
problem? Or do we think lots of the problem is intra-U.S. 
domestic money laundering?
    Mr. Lormel. I think it is more the transnational problem, 
certainly, and that does not diminish the problem in-country. 
But I would say it is more the cross-border issues.
    Ms. Woodrow. I think it really depends on the underlying 
crime. Cross-border is certainly a substantial part, whether it 
comes to international drug trade, terrorist financing, 
international frauds.
    From a regional or a community bank perspective, we are 
going to see a lot of that happening domestically, but 
eventually it is going to reach itself outside the borders.
    Mr. Poncy. I fully agree, and in my testimony I have a 
number of pages dedicated to explaining how during my time in 
Government transnational organized crime literally became a 
national
security threat. I think it was 2011 when we officially 
recognized that, and that action was years in coming, where, 
again, I go back to anybody worth chasing is not here that 
long. They may have a market that they have to hit here, 
whether it is a drug market or it is a financial service or 
dollarization, but they are going to get in and get out because 
we are a deterrent in the sense that our AML/CFT regime is 
good. But just as every business these days is considering 
international connectivity from customers to suppliers to 
vendors, et cetera, the same is true for transnational 
organized crime. These are opportunistic groups that take 
advantage of globalization the same way that legitimate 
businesses do. And so as the whole world has gone global in 
terms of, again, their connectivity in a sophisticated, 
specialized global economy, TCOs, transnational criminal 
organizations, have done the same thing. To me it just puts 
more and more pressure on something that, notwithstanding the 
sort of Tomorrowland idea of cross-border reporting being too 
far off, that was supposed to be done years ago. In fact, there 
is a proposed rule that is already 2 or 3 years dated where 
systems studies have already been done. That can be turned on 
if it is resourced, if it is prioritized, and then we can test 
this, right? And we can actually get that data and start to 
see, to Dennis' point, where are funnel accounts. It is hard to 
see that at any individual institution because, again, anybody 
worth catching is not going to structure all this in one place. 
They are going to go to different institutions, they are going 
to go to different geographies. And until you start to see 
cross-border, oh, look at this, all of this is going to that 
counterparty, that jurisdiction, that financial institution, 
now I can see that, that is a funnel account offshore, which, 
if I were back, that is what I would be doing all day. We 
cannot see that, and it is within our grasp, and it is within 
our grasp in a way that is cost-effective.
    Senator Sasse. Mr. Lormel, it seems like you had a point on 
funneling as well?
    Mr. Lormel. I was in agreement with Chip on that. That was 
well said, Chip.
    Senator Sasse. Great. If we could just maybe limit 
yourselves to 2 or 3 minutes each, but we will go in the order 
that we began and do your sort of top three, or whatever the 
right number is, your King for a Day high-priority 
recommendations list, please?
    Mr. Lormel. Yes, sir. Thank you.
    First, one thing we did not talk about was regulatory 
requirements versus regulatory expectations, so that would be 
something I would look at. I think one of the things that 
hamstrings the banks is the burden of the expectation versus 
what is required, the feedback mechanism. I really think if we 
can have a consistent feedback mechanism, that would be 
important.
    The reporting thresholds, you know, I will defer to law 
enforcement to defend that, but I am an ardent believer that we 
need to keep the thresholds where they are. And beneficial 
ownership, we really need to do something about beneficial 
ownership.
    So thank you. Thank you for holding this hearing. I think 
this was very thoughtful.
    Senator Sasse. Thank you.
    Ms. Woodrow?
    Ms. Woodrow. Thank you, and I do appreciate the time and 
attention to this really important topic. I think if I was to 
look at my priorities, improving consistency across the 
different banking regulators through a national strategy, 
whether that is led by FinCEN or another agency, improving that 
data sharing between law enforcement and financial 
institutions, help us get the information that we need to 
target our monitoring to what law enforcement really wants to 
see.
    Third, allowing the sharing between banks so that we can 
collaborate and combine our resources and expertise.
    And then I am in agreement with my co-panelists here on the 
importance of the transparency with regard to legal entities.
    Senator Sasse. Thank you.
    Ms. Woodrow. Thank you.
    Senator Sasse. Mr. Poncy?
    Mr. Poncy. I was trying to jam as many as I could into 
three points, so I was furiously scribbling to try to get ten 
inside of three. I was not really successful.
    The first, anonymous companies. Absolutely we should be 
ending anonymous companies created in the United States. It is 
way overdue. There is plenty on the record for that. How you do 
that is an interesting question, but the how cannot prevent us 
from ever getting there. We are just going to have to 
prioritize and get it done. Reasonable people can disagree on 
what good looks like, but we should not let great prevent good 
from happening, which is really where we are.
    Two is pilots. We do not know a lot about the questions 
that you have asked, and I think we need to create a market to 
get data. That is about information sharing. That is about new 
technologies. That is about systematic reporting, including 
cross-border reporting. We need pilots to get up and running so 
that we can see what good looks like.
    Third, we really do need to invest in protected financial 
investigative teams that can go after sophisticated money 
launderers without having to worry about metrics that 
chronically put pressure on those budgets. And there is a part 
in my testimony that leans on the fact that--this is a 
potential wormhole, but our best financial investigative 
expertise has always been in IRS, and it has never been a 
popular agency for reasons you probably understand better than 
I. Does it need to stay that way? CPAs that also carry guns and 
badges, can they be more liberalized to work on sophisticated 
financial investigations to support the Bureau, to support DHS, 
to support others? They cannot do that without resources. They 
may never get there in IRS. But they can get there in Treasury. 
So there are ways to restructure this in ways that allow us to 
finance our best financial investigators, to support our best 
law enforcement agencies without that hang-up of the IRS, and 
that is an interesting conversation.
    So those would be the three that I would pursue.
    Senator Sasse. Very helpful on that last point. What we see 
across the IC, places where we are getting better in a world 
with more and more cyber crime and cyber risk generally, is a 
move away from an assumption about bureaucratic centrality and 
priority over other bureaucracies and fusion centers that are 
starting with what data do we have and what data do we need, 
and then you build your human capital around something that 
begins with strategy and data access.
    Thank you to all three of you for being here. We appreciate 
it. We are going to leave the record open--I think what I am 
officially supposed to say--for Senators who wish to submit 
questions for the record. Those questions are due on Wednesday, 
June 27th, and I encourage our witnesses, if you receive 
questions, to respond promptly.
    I thank you for your cooperation and assistance, and this 
hearing is concluded.
    [Whereupon, at 4:03 p.m., the hearing was adjourned.]
    [Prepared statements and responses to written questions 
supplied for the record follow:]
                 PREPARED STATEMENT OF DENNIS M. LORMEL
President and CEO, DML Associates, LLC, and Former Chief, FBI Financial 
                             Crimes Program
                             June 20, 2018
    Good afternoon Chairman Sasse, Ranking Member Donnelly and 
distinguished Members of the Subcommittee. My name is Dennis M. Lormel. 
I have been engaged in the fight against money laundering and illicit 
finance for 45 years. Between my law enforcement experience and my 
private sector consulting experience, as a subject matter expert, I 
have developed a unique perspective regarding the benefits and burdens 
of the Bank Secrecy Act (BSA). Having served for 31 years in the 
Government, 28 years as a Special Agent in the Federal Bureau of 
Investigation (FBI), I was the direct beneficiary of BSA reporting. 
Now, having been in the private sector, working as a consultant and 
subject matter expert, primarily with the financial services industry, 
I have become sensitive to the burdens and challenges of BSA reporting 
encountered by financial institutions. Those burdens and challenges are 
driven in part by regulatory requirements and expectations, as well as 
by the lack of consistent feedback mechanisms from law enforcement 
regarding the value of BSA reporting. Make no mistake, BSA reporting is 
essential to law enforcement's ability to defend our national security 
and the economy from the threats posed by terrorism, 
counterintelligence and criminal adversaries. Therefore, having a 
thoughtful discussion about how to meaningfully enhance and not 
diminish the effectiveness and efficiency of BSA reporting is 
critically important to all stakeholders.
    Money laundering and other forms of illicit finance are an 
extremely important topic, especially when placed in context with BSA 
reporting requirements and expectations. I had the privilege of 
testifying before the Senate Banking Committee on January 9, 2018. As 
Subcommittee Members may recall, that hearing addressed ``Combating 
Money Laundering and Other Illicit Finance: Opportunities to Reform and 
Strengthen BSA Enforcement.'' I applaud the Subcommittee for holding 
this hearing to delve deeper into this important topic. The reality is 
that terrorists, terrorist organizations, spies, criminals and criminal 
organizations invariably rely on the financial system to move and 
access funding. The one commonality that terrorists, spies and 
criminals share is the need for funding. Without adequate funding, bad 
actors are much less likely to succeed with their nefarious activities. 
Therefore, the more effective and efficient we can make BSA reporting, 
the more challenging and disruptive it will be for bad actors to move 
and access needed funding.
    I would like to refer to my written statement from the January 9, 
2018, hearing as a framework to build on with my testimony today. As I 
stated in that session: ``In using the financial system, criminals and 
terrorists are confronted with distinct contrasts. On one hand, the 
financial system serves as a facilitation tool enabling bad actors to 
have continuous access to funding. On the other hand, the financial 
system serves as a detection mechanism. Illicit funds can be identified 
and interdicted through monitoring and investigation. Financing is the 
lifeblood of criminal and terrorist organizations. At the same time, 
financing is one of their major vulnerabilities.''
    By understanding how criminals and terrorists launder money and 
avoid detection; how financial institutions succeed in targeting them; 
how law enforcement can leverage financial intelligence derived from 
financial institution; and how the funding flows involving various 
criminal activities can differ or be similar; financial institutions 
position themselves to better detect and not facilitate money 
laundering. Once suspicious activity has been identified and reported, 
law enforcement is better positioned to interdict and disrupt said 
criminal activity. The more productively financial institutions and law 
enforcement can collaborate with each other and share information, the 
more effective and efficient BSA reporting will be.
    You asked me to provide my perspective today on how criminal 
organizations launder money and avoid detection by financial 
institutions to include the following topics:

  <bullet>  Money laundering issues relating to narcotics trafficking, 
        trade-based money laundering, human trafficking, and real 
        estate money laundering;

  <bullet>  The development and implementation of money laundering 
        typologies to fight crimes such as, but not limited to, human 
        trafficking;

  <bullet>  Effective means of cooperation and coordination with law 
        enforcement officials;

  <bullet>  How to improve information sharing between individual 
        financial institutions and with law enforcement.
Background
    Before addressing the four bullet points above, it is important to 
establish who we are dealing with; in what context we are dealing with 
them; discuss the nexus between money laundering and fraud, and how 
that relates to predicate offenses or specified unlawful activities; 
and visualize the flow of funds as to how bad actors use the financial 
system.
    Who are we dealing with regarding the myriad of criminal offenses? 
We are dealing with individuals, groups of individuals, domestic 
criminal organizations, transnational criminal organizations, homegrown 
violent extremists and terrorist operatives, and terrorist 
organizations. Bad actors usually have the advantage of being more 
proactive. BSA reporting is inherently reactive. This gives the bad 
actors an advantage, which is a challenge for financial institutions 
and law enforcement. Another challenge is that the different categories 
of bad actors set forth above will interact with each other if it is in 
their mutual best interest. This is particularly true with 
transnational criminal organizations and terrorist organizations. This 
is referred to as the convergence between criminals and terrorists. 
There is a nexus between fraud and money laundering. Fraud and money 
laundering are interconnected. The proceeds of fraud and other 
predicate offenses or specified unlawful activities need to be 
laundered. Taking this a step further, if you list most predicate 
offenses, which would include drug trafficking, trade-based money 
laundering, human trafficking, and real estate fraud; they will most 
likely contain elements of fraud and require money laundering. If you 
list predicate offenses and placed fraud on the top of the list and 
money laundering at the bottom of the list and envision the list to be 
a sandwich, the predicate offenses would represent the meat. Fraud and 
money laundering would be the gourmet bread. A great sandwich requires 
great bread. Successful criminal activity requires fraud and money 
laundering.
    It is important to visualize the flow of funds. Regardless of the 
nature of the predicate offense, and how similar or different they are, 
and how similar or different they flow through the financial system, 
the process is the same. Criminals and terrorists raise, move, store 
and spend funds. This is the basic funding flow. When criminals raise 
money the source of funds will be illicit. When terrorists raise money 
the source of funds will be legitimate or illegitimate. Funds are then 
moved either through the formal or informal financial systems. Funding 
will be stored and will either continue to be stored or continue to be 
moved and stored and then spent. This is where funding flows for 
different criminal activity may differ more significantly. Following 
the moving and storage flow the funds are spent. Money laundering is a 
three step process: placement, layering and integration. When money is 
raised and moved, this is the placement stage of money laundering. When 
money is moved and stored, it is the layering stage of money 
laundering. The more the money is moved and stored the more seemingly 
legitimized the funds become. When the money flows from being stored to 
spent, it represents the integration stage of money laundering. This is 
where funding is accessed as being seemingly legitimate in furtherance 
of nefarious purposes. As funds flow through the moving and storing 
phases, this is where financial institutions are facilitation tools or 
detection mechanisms. Below is a flow chart visualizing the funding 
flow described above. The funding flow below the funding streams box 
relate more directly to terrorist financing, although it could relate 
to transnational criminal organizations as well. The rest of the 
funding flow is consistent for criminals and terrorists alike.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The main distinction between terrorist financing and criminal money 
laundering is that terrorist financing tends to be linear and criminal 
money laundering tends to be circular. In that regard, in terrorism, 
the spend or funding access flows linearly to support a terrorist 
activity. In criminal money laundering, the spend or funding access 
flows back to the criminal or criminal enterprise in a circular manner.
Money laundering issues relating to narcotics trafficking, trade-based 
        money laundering, human trafficking, and real estate money 
        laundering
    The Financial Action Task Force (FATF) is an international 
governmental body that serves as the standard bearer for combating 
money laundering. The FATF 40 Recommendations set out a comprehensive 
and consistent framework of measures which countries should implement 
in order to combat money laundering and terrorist financing. 
Recommendation 3, of the FATF 40 Recommendations, states that 
``countries should apply the crime of money laundering to all serious 
offenses with a view to include the widest range of predicate 
offenses.'' Regardless of differences in the myriad of predicate 
offenses, law enforcement should include charges of money laundering 
when pursuing criminal prosecution in activities to include narcotics 
trafficking, trade-based money laundering, human trafficking and real 
estate money laundering. This reinforces why BSA reporting is so 
important.
    When assessing money laundering issues regarding narcotics 
trafficking, trade-based money laundering, human trafficking and real 
estate money laundering, the starting point is the scope of the crime 
problem. Drug trafficking has long been and continues to be the most 
prolific global crime problem. Human trafficking has evolved to become 
the second most significant global crime problem. It is difficult to 
quantify trade-based money laundering. However, trade-based money 
laundering is, in a sense, a growth industry. Trade based money 
laundering is a global problem but centered more regionally where there 
are free trade zones. There are many real estate related frauds. For 
purposes of this discussion, much attention has been placed on the 
purchase of highly expensive real estate in select geographic regions 
around the world. Much of this real estate is purchased through shell 
companies or nominees and is paid for in cash.
    The next consideration to assess is who we are dealing with, how 
are they likely to touch the financial system and where are the touch 
points geographically. Drug trafficking is more inclined to include 
domestic and transnationalcriminal organizations. Terrorist 
organizations will also engage in the sale of narcotics as a source of 
income. Human trafficking will more likely involve groups of 
individuals and both domestic and transnational criminal organizations. 
Trade-based money laundering will more likely involve individuals, 
groups of individuals and transnational
criminal organizations. For the most part, real estate money laundering 
involves individuals or groups of individuals. The key from an anti-
money laundering (AML) perspective is to understand and identify the 
touch points individual criminals and groups have with financial 
institutions.
    Narcotics trafficking and human trafficking groups can overlap by 
using the same supply chain or channels and involve the same groups. To 
the extent narcotics and human trafficking operations overlap, they 
will more likely have similar distribution flows. In any event, 
narcotics trafficking and human trafficking are more likely to have 
greater similarities. Trade based money laundering is more unique to 
other criminal activity in that it relies more on false invoicing and a 
wider variety of commodities. Real estate money laundering is more 
unique to itself because it relies more on individuals and not 
organizations and involves cash to purchase expensive fixed real 
estate. Thus there is no supply chain or channel in these real estate 
money laundering schemes. It should be noted that there could be 
exceptions to these norms.
    When you understand the crime problems in terms of scope and 
geography, and in combination with who you are dealing with, you can 
begin to visualize the funding flow in terms of how the bad actors 
raise, move, store and spend their ill-gotten gains. An important key 
is to simplify the funding flow as much as possible. From an AML 
perspective, drug trafficking is not only the most prolific crime 
problem, it also represents the broadest exposure to financial 
institutions ranging from smurfs or mules structuring transactions 
under the $10,000 currency transaction report (CTR) threshold to the 
multi-million dollar movement of drug funds. To further complicate this 
challenge, drug traffickers exploit a variety of facilitation tools, 
such as shell companies, to avoid AML detection. Transnational drug 
trafficking organizations frequently engage in trade-based money 
laundering to move and convert large sums of money, cross border 
between countries, from one currency to another. One such common scheme 
is referred to as the Black Market Peso Exchange (BPME). This is where 
money brokers are used by drug traffickers to convert U.S. dollars or 
Euros to pesos through the sale of commodities, such as clothing or 
electronic equipment. As will be discussed later, patterns of funding 
activity or typologies involving human trafficking have been more 
predictable for financial institutions and law enforcement. Trade based 
money laundering presents a significant AML challenge for financial 
institutions to identify. Under and over invoicing is extremely 
difficult for financial institutions to identify. Trade and shipping 
documents tend to be less automated and more paper centric making 
analysis more difficult. As mentioned above, drug trafficking 
organizations rely on BPME, a form of trade-based money laundering, to 
convert the proceeds of drugs sold in the United States or Europe from 
dollars and Euros into pesos in Mexico and Colombia through the trade 
of commodities by money brokers. By their nature, BPME schemes are 
difficult for financial institutions to identify through traditional 
AML monitoring.
    An example of a significant BPME case was Operation Fashion Police. 
In a major takedown in Los Angeles on September 10, 2014, nearly 1,000 
Federal, State and local law enforcement officers seized approximately 
$100 million in cash, arrested nine subjects and searched dozens of 
businesses in the city's downtown fashion district alleged to have 
laundered money for Mexican drug cartels. Three fashion businesses were 
indicted. One was indicted for accepting bulk cash and funneling money 
through 17 businesses. The other two companies were indicted for 
structuring deposits of bulk cash to avoid reporting requirements. From 
reviewing the statements of facts in Federal charging documents, it 
appears that considerable evidence was developed from CTRs and 
suspicious activity reports (SARs). As a result of this case, FinCEN 
issued a Geographic Targeting Order (GTO) covering the Los Angeles 
fashion district.
    With respect to real estate money laundering, FinCEN issued and 
subsequently renewed GTOs in six major metropolitan areas in the United 
States regarding the all cash purchase of luxury real estate. The GTOs 
required U.S. title insurance companies to identify natural persons 
behind shell companies used to make the all cash purchases. This crime 
problem demonstrates the significance of the money laundering risk 
presented by the issue of beneficial ownership.
The development and implementation of money laundering typologies to 
        fight crimes such as, but not limited to, human trafficking.
    Human trafficking is a heinous crime problem. I believe that AML 
professionals are dedicated and motivated to protect their financial 
institutions from the threat of money laundering and the risks 
associated with being exploited as a facilitation tool by bad actors. 
Two areas where this is particularly true are human trafficking and 
terrorist financing. As mentioned above, patterns of activity or 
typologies
involving human trafficking have been more predictable for financial 
institutions and law enforcement.
    Before focusing more specifically on human trafficking, we should 
look more broadly at developing typologies to identify suspicious 
activity for criminal offenses. The BSA requires financial institutions 
to establish AML programs reasonably designed to identify and report 
suspicious activity. This starts with identifying red flags associated 
with each criminal activity. Red flags are generic warning signs. They 
are indicators that there might be suspicious activity. There are many 
lists of red flags regarding criminal activities available to financial 
institutions. From the list of generic red flags, I encourage financial 
institutions I work with to take
generic red flags more specific to their institutional risk and to 
customize them to their institutional risk environment.
    One mechanism to develop money laundering typologies is to review 
Federal court charging documents such as an indictment, plea agreement, 
criminal information and search warrant. In the affidavit supporting 
the charging document there will be a statement of facts. The statement 
of facts frequently sets forth the alleged typology used to commit the 
criminal offense. This is one mechanism where financial institutions 
can enhance the scenarios they use for transaction monitoring.
    With respect to human trafficking, there are multiple sources of 
red flags available to financial institutions. Other red flag guidance 
is available from FATF, Homeland Security Investigations (HSI), the FBI 
and other viable sources. It should be noted that the Polaris Project 
has written a great reference guide about human slavery (trafficking), 
entitled ``Typologies of Modern Slavery.'' In addition, human 
trafficking is widely discussed at industry AML training conferences. 
Training is one of the core pillars of an AML program. Human smuggling 
typologies and warning signs are frequent topics.
    The Association of Certified Anti-Money Laundering Specialists 
(ACAMS) has made human smuggling a long-time priority. They started a 
working group in 2010 with a group of major banks and HSI. Bank 
analysts and HSI analysts developed patterns of activity or typologies 
consistent with human smuggling. JPMorgan Chase had a team of special 
investigators who conducted targeted transaction monitoring and 
identified potential suspicious activity. ACAMS gave JPMorgan Chase and 
HSI a special award in recognition of their outstanding collaboration. 
Another outstanding example of public and private sector partnerships 
occurred in January 2018, in the run up to the Super Bowl. The ACAMS 
Minneapolis Chapter held a half day learning event focused entirely on 
human slavery/trafficking. I was proud to be the first speaker. U.S. 
Bank, HSI and the U.S. Attorney's Office in Minneapolis collaborated to 
develop typologies to identify human sex trafficking specifically 
related to travel for the Super Bowl. These types of initiatives have a 
great impact on crime problems like human trafficking. I must give a 
cautionary comment that this type of initiative is not as easy as it 
sounds. It can be costly. There are regulatory concerns and other 
impediments that must be overcome. The September issue of ACAMS Today 
magazine had a detailed article about the Minneapolis learning event.
Effective means of cooperation and coordination with law enforcement 
        officials
    The most effective means of cooperation and coordination between 
financial institutions and law enforcement is through sustainable 
public and private partnerships. In addition to cooperation and 
coordination, these partnerships must include communication. 
Establishing viable partnerships begins with perspective. You must 
understand the perspective of your partner and overcome any impediments 
caused by differences in perspective. For example, the primary 
perspective of financial institutions is to protect the integrity of 
the institution, whereas the primary perspective of law enforcement is 
to develop evidence to obtain criminal prosecutions and to disrupt 
terrorist activity. At times, these perspectives can clash. In 
understanding perspectives and working through potential impediments, 
you must develop win-win situations for each partner. It's important to 
understand that a win-win situation may not be a best-case scenario but 
rather a good-case scenario. Once that has been established you can 
leverage the capabilities and capacity of partners to attain that good-
case scenario in order to establish the win-win situation. When that 
foundation is established, partners can develop sustainable, innovative 
and impactful proactive measures to support law enforcement 
investigative initiatives.
    The targeted monitoring projects described above involving JPMorgan 
Chase, and subsequently U.S. Bank, with HSI, are outstanding examples 
of public and private sector partnerships. Financial institutions 
conduct baseline transaction monitoring, which is inherently reactive. 
The rate of SARs used to predicate or enhance law enforcement 
investigations from baseline transaction monitoring is low. This is 
where we must improve the effectiveness and efficiency of SAR 
reporting. Targeted monitoring projects result in a more proactive 
approach and a higher SAR utilization rate. Other outstanding examples 
of meaningful public and private sector partnerships is where both the 
FBI's Financial Crimes Section and Terrorist Financing Operations 
Section (TFOS) have ongoing national bank working groups in which they 
provide targeted information and feedback to participating financial 
institutions. The information sharing and feedback result in better 
quality BSA reporting.
    As I stated in the January 9, 2018, hearing: ``One of the most 
productive examples of public and private sector partnership, and 
information sharing, is the Joint Money Laundering Intelligence Task 
Force (JMLIT) in the United Kingdom (U.K.). JMLIT was formed by the 
government National Crimes Agency (NCA) in partnership with the 
financial sector to combat high end money laundering. JMLIT was 
established as a business-as-usual function in May 2016. It has been 
developed with partners in government, the British Bankers Association, 
law enforcement and more than 40 major U.K. and international banks. 
I'm hopeful that the United States can assess and work through 
information sharing and privacy concerns in order to replicate the U.K. 
JMLIT model.''
How to improve information sharing between individual financial 
        institutions and with law enforcement
    As I stated in the January 9, 2018, hearing: ``As an extension of 
public and private partnerships, we should consider how to improve 
information sharing. The PATRIOT Act provided us with information 
sharing vehicles such as Section 314(a) where financial institutions 
can share financial information with law enforcement and Section 314(b) 
where financial institutions can share information with each other. 
Efforts should be made to enhance Section 314 information sharing in 
the current environment. In addition, any proposed enhancements to the 
BSA should consider additional information sharing mechanisms. The more 
we can do to enhance information sharing, the more meaningful 
information will be for law enforcement and the more detrimental to 
criminals and terrorists. During their plenary session in June 2017, 
the Financial Action Task Force (FATF) stressed the importance of 
information sharing to effectively address terrorist financing. I have 
always been a huge proponent of information sharing to the extent 
legally allowable.''
    Law enforcement outreach is extremely important. At the grassroots 
or jurisdiction and/or field office level, there are informal working 
groups. Each of the 94 U.S. Attorney's Offices in the United States has 
law enforcement SAR review teams. An Assistant U.S. Attorney in each 
Judicial District leads the SAR review team. SAR review teams involve 
personnel from Federal law enforcement. In most SAR review team 
locations, Internal Revenue Service (IRS) Criminal Investigations plays 
a lead role. Depending on the jurisdiction, SAR review teams will also 
include State and local law enforcement agencies. Financial 
institutions, at the grassroots level, should participate with law 
enforcement at the jurisdiction level. Federal law enforcement agencies 
also have outreach programs at the national level and/or initiative 
specific level. This is exemplified by the working groups the FBI 
Financial Crimes Section and TFOS host at FBI Headquarters.
    Feedback to financial institutions from law enforcement regarding 
the value of BSA reporting, particularly the value of SARs, is 
inconsistent. There are a number of inherent impediments to 
establishing a feedback mechanism. Such include the nature of criminal 
investigations. From the point a SAR is filed to the point a case is 
concluded, it could be a period of one or more years. If a case is a 
Grand Jury investigation, information cannot be disclosed by law 
enforcement. In addition, law enforcement lacks the resources to 
consistently provide feedback. There are always new cases to move 
forward with and investigators don't have time to provide feedback. 
Impediments aside, there are no excuses for not providing feedback. As 
noted in discussing targeted monitoring initiatives, in those 
situations, consistent feedback from law enforcement is provided and 
the quality of financial institution BSA reporting is outstanding.
Countering the Threat by Enhancing BSA reporting from a law enforcement 
        perspective
    From my perspective, which includes my law enforcement experience 
and my private sector consulting experience, there are four issues that 
must be addressed in proposed legislation to improve or enhance BSA 
reporting effectiveness and efficiency. The first is less tangible or 
measurable and more challenging. The other three are more tangible. 
However one of those three is less measurable. The first is regulatory 
requirements versus regulatory expectations. The other three, which are 
more tangible are, the CTR and SAR reporting thresholds, feedback 
mechanisms and beneficial ownership. I believe the reporting threshold 
and beneficial ownership are more measurable, whereas feedback 
mechanisms are not currently very measurable.
    Basically, the flow of BSA reporting from financial institutions to 
law enforcement is extremely beneficial. However, when the filters of 
regulatory requirements and regulatory expectations are applied, 
especially the uncertainty of regulatory expectations, there is a drag 
or reduction in the flow and possibly the quality of BSA reporting. In 
keeping with the theme of the flow of information, we must consider the 
inconsistent feedback from law enforcement to financial institutions. 
Below is a flow chart which demonstrates the process of the 
dissemination of information.
    If the space between the black and red arrows could be reduced, the 
real or perceived regulatory impediments would diminish and improve the 
flow of BSA reporting to law enforcement. An example of regulatory 
expectations is where financial institutions make a decision not to 
file a SAR. A frequent complaint I hear from AML compliance 
professionals is that they have to provide their regulators with more 
documentation for no-SAR decisions versus SAR filings. Consequently, 
financial institutions file SARs they otherwise would not, because of 
real or perceived regulatory expectations. These filings are not 
warranted. The time taken by financial institutions to document the no-
SAR decision or to file SARs to merely satisfy regulators, coupled with 
the time required by law enforcement to review these SARs is time 
wasted and is counterproductive.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    If a consistent feedback mechanism could be developed from law 
enforcement and financial institutions, the broken line on the above 
flow chart would become more connected and would improve feedback and 
more importantly, the quality of BSA reporting. I believe a feedback 
mechanism should be developed and implemented through FinCEN which is 
initiated by law enforcement. I further believe that SAR feedback would 
improve the quality of SAR submissions. I also believe that a SAR 
feedback mechanism would improve the morale of AML professionals who 
are involved in the SAR process. They would have a greater sense of 
accomplishment and satisfaction that their work contributes to law 
enforcement successes. Make no mistake; SARs play a significant role in 
law enforcement investigations. I believe that the FBI is assessing how 
to develop a more consistent SAR feedback mechanism.
    My greatest concern about potential BSA enhancement legislation is 
any consideration to increase BSA CTR and SAR reporting thresholds. 
That would be devastating to law enforcement. With the current threat 
environment, especially with the terrorism threat of homegrown violent 
extremists, law enforcement needs as much financial intelligence as is 
legally available. Likewise, when you take into consideration the 
bandwidth of drug trafficking, the nuances of human trafficking and the 
challenge of trade-based money laundering, coupled with the variations 
of financial crimes, especially Ponzi schemes, raising BSA reporting 
thresholds will greatly diminish law enforcements capability to respond 
to these and other crime problems and to protect our national security 
and economy.
    Financial intelligence, derived from financial institutions, 
enables law enforcement to better protect us. AML professionals have 
told me that increasing BSA reporting thresholds for CTRs and SARs 
would not likely save money and does not cause a burden. This is 
because financial institutions have automated systems set at the 
current thresholds. According to the FBI, and I have not been able to 
verify the statistics, if the CTR threshold is raised from the $10,000 
threshold to $30,000, the FBI would lose 78 percent of financial 
intelligence derived from CTRs. In addition, the FBI advised that if 
the SAR threshold were raised to $50,000 they anticipate an 80 percent 
loss in SAR filing intelligence. Finance is one of the biggest 
vulnerabilities of criminals and terrorists. The significant loss of 
any financial intelligence is a troubling detriment to law enforcement. 
The BSA is intended to support law enforcement, not to deter it.
    I was advised by FBI executives that the FBI conducts data analysis 
of BSA filings, including CTRs and SARs, to enhance existing cases and 
to predicate new investigations. All FBI main subjects are searched 
against BSA data on a monthly basis. According to the FBI, they average 
hits on 4,000 BSA filings per month. The FBI also proactively uses data 
analysis to identify new cases. The FBI refers to this as targeted 
suspicious activity reports (TSARs). Searches are run using search 
terms for money laundering, terrorist financing, human trafficking, 
fraud, corruption, Transnational Organized Crime and other schemes. I 
have also heard IRS case agents, making case study presentations, at 
recent conferences, discuss how they run similar BSA data checks to 
enhance their investigations. The loss of CTR and SAR reporting, 
especially above 50 percent would be extremely detrimental to law 
enforcement investigations.
    I have been advocating for beneficial ownership legislation since 
2012. I have testified at hearings or briefed Congressional members and 
staff dating back to October 2001, about the vulnerabilities shell 
companies present to our financial system. This is especially true in 
dealing with the threat of terrorism, spies and criminals. As an 
example, Iran has been able to circumvent sanctions by using shell 
companies to provide them with access to the financial system. In one 
specific case, shell companies were used to allow the Alavi Foundation, 
Assa Corporation and the 650 Fifth Avenue Company (a partnership of 
Alavi and Assa) to hide the Iranian ownership of the 36 story building 
at 650 Fifth Avenue in New York City.
    Perhaps the most compelling reason to enact beneficial ownership 
legislation comes from the 2016 Mutual Evaluation of the United States 
conducted by FATF. FATF found that the United States has a well-
developed anti-money laundering regime. However, FATF noted that the 
system has serious gaps that impede timely access to beneficial 
ownership information.
Conclusion
    Our threat environment is extremely concerning. Finance is one of 
the most important vulnerabilities to bad actors, and consequently, the 
threat environment. We must do whatever we can to exploit the 
vulnerability of bad actors and not allow them to succeed. When we 
consider enhancements to BSA reporting we must ensure we get it right. 
Those enhancements must be in the best interest of our country. That 
means ensuring law enforcement has the tools they need to protect 
national security and our economy.
    Thank you for taking the time to hold this hearing and for 
affording me the opportunity to share my perspective on this important 
topic.
                                 ______
                                 
                 PREPARED STATEMENT OF TRACY S. WOODROW
   Senior Vice President and Bank Secrecy Act/Anti-Money-Laundering 
                     Director, M&T Bank Corporation
                             June 20, 2018
    Chairman Sasse, Ranking Member Donnelly, and Members of the 
Subcommittee, thank you for holding today's hearing to discuss the U.S. 
anti-money laundering and combating the financing of terrorism regime 
and its impact on the way U.S. banks employ technology to counter 
illicit financial activity. My name is Tracy Woodrow and I am a Senior 
Vice President, Bank Secrecy Act Officer and Anti-Money Laundering 
Director at M&T Bank. M&T Bank is a U.S. regional bank with 
approximately 780 domestic banking offices in eight States and the 
District of Columbia. Since 2013, I've overseen the bank's AML/CFT and 
sanctions compliance efforts. I also chair a working group at The 
Clearing House \1\ that is analyzing the resources banks devote to AML/
CFT and sanctions compliance. We are seeking to understand whether the 
current legal and regulatory regime is effectively addressing present-
day illicit finance risks and enabling banks to use their resources to 
proactively identify illicit activity. I will present some of the 
findings from this working group during my testimony as well as some 
insights regarding the resources M&T devotes to such efforts.\2\
---------------------------------------------------------------------------
    \1\ The Clearing House is a banking association and payments 
company in the United States and is currently owned by 25 large 
commercial banks. The Association is a nonpartisan advocacy 
organization dedicated to contributing quality research, analysis and 
data to the public policy debate.
    \2\ The Clearing House has conducted a survey of its members that 
is intended to provide an empirical basis upon which to assess current 
BSA/AML/OFAC requirements. TCH expects to release the results of that 
survey shortly.
---------------------------------------------------------------------------
    As M&T's BSA/AML Officer, I lead a team of over 300 professionals 
who are dedicated to the cause of detecting and deterring money 
laundering and terrorist financing, while ensuring that our customers 
can conduct transactions in a safe, secure and private manner. We use a 
variety of standard tools in this fight, including rules-based 
monitoring, customer screening, enhanced due diligence for higher risk 
customers, and tips sent to us from fellow bank employees. In addition, 
we are beginning to use more modern, innovative tools. For example, we 
are using flexible data analytics to understand emerging risks and 
patterns of similar suspicious behaviors across customer groups. In 
some cases, we are working directly with law enforcement to identify 
red flags that may indicate suspicious activity in the communities we 
serve and have achieved great success in cases where we have worked 
collaboratively with law enforcement to thwart criminal activity. We 
are also exploring the use of automation, artificial intelligence and 
shared utilities across financial institutions as tools which may allow 
us to better assess huge amounts of data and identify unusual financial 
transactions.
    While we have achieved significant success in the fight against 
money laundering, which in some cases has led to the detection of 
illicit finance and ultimately criminal convictions, I believe that the 
financial industry can be even more effective. Increased effectiveness 
can be achieved if we are given the tools and flexibility to increase 
innovation, focus on the most serious risks and collaborate closely 
with law enforcement and peer institutions. Criminal actors who seek to 
use the U.S. financial system to do harm in our communities are well 
financed, highly motivated and agile. To effectively combat this 
threat, we must continue to evolve and strengthen our anti-money 
laundering regime. We must re-evaluate the expectations placed on 
financial institutions so that we do not inadvertently place a higher 
value on the ability to precisely and comprehensively document the 
evaluation of routine transactions than we place on the ability to 
provide meaningful information to law enforcement.
    As you are aware, the Bank Secrecy Act was passed by Congress in 
1970 and has been added to, but not significantly reformed, by the 
legislature since. The Act requires financial institutions to provide 
law enforcement with leads that are of a ``high degree of 
usefulness''\3\ while also setting basic requirements for AML/CFT 
programs at financial institutions, including (i) the development of 
internal policies, procedures and controls; (ii) designation of a BSA 
or compliance officer; (iii) ongoing training requirements; and (iv) a 
robust audit or independent review function. The Act also introduced 
the requirement to file Currency Transaction Reports (``CTRs'') on cash 
transactions over $10,000. Legislation enacted since the Bank Secrecy 
Act, including the USA PATRIOT Act, have added requirements to file 
reports on suspicious transactions (``SARs''), verify the identity of 
bank customers and to conduct enhanced due diligence on a subset of 
those customers--notably correspondent banks, private banking clients, 
foreign senior political officials and other customer categories that 
have been deemed higher risk. Most recently, the requirement to 
identify ultimate beneficial owners of legal entity customers has been 
added through regulation.
---------------------------------------------------------------------------
    \3\ See 31 U.S.C.  5311 which states that ``[i]t is the purpose of 
this subchapter [the BSA] to require certain reports or records where 
they have a high degree of usefulness in criminal, tax, or regulatory 
investigations or proceedings, or in the conduct of intelligence or 
counterintelligence activities, including analysis, to protect against 
international terrorism.''
---------------------------------------------------------------------------
    Criminal organizations move money through the financial system in 
many ways. They use all forms of finance including cash, ACH, wires, 
investments and trade finance--and now, even emerging technologies such 
as virtual currencies and person-to-person funds transmittal 
applications. They use shell companies to hide identities or to create 
the false impression of legitimate business activity. They use front 
companies and money mules to hide the real people behind the 
transactions. With so many varied and ever-changing techniques to move 
illicit funds, it is critical that financial institutions, law 
enforcement and banking regulators never become complacent or satisfied 
with yesterday's methods of identifying this activity.
    It is also important to ensure that financial institutions are 
using their compliance resources efficiently and effectively. Under the 
current regime, banks like M&T are required to perform extensive 
evaluations of customers and transactions. We are required to carefully 
document every aspect of these evaluations and to compile large amounts 
of supporting documentation, even where it is determined that no 
suspicious activity is present. This focus on documentation of that 
which is not suspicious results in a huge amount of resources devoted 
to satisfying the intense focus of our regulators to such matters, 
resources that could be used to further the mission of detecting 
illicit activity.
    Each year M&T files thousands of SARs \4\ and tens of thousands of 
CTRs.\5\ However, feedback from law enforcement regarding the quality 
or usefulness of these filings is rare. At my institution, we receive 
post-SAR filing followup requests for information on a SAR (such as a 
subpoena or other legal process) from law enforcement about 5 percent 
of the time. Followup on CTR filings almost never occurs. Results of a 
survey recently conducted by The Clearing House indicate that our 
experience is not unique. In discussions with some law enforcement 
agencies, it appears that the lack of consistent agency policy or 
legislative authorization makes law enforcement reluctant to provide 
feedback on SAR filings, possibly due to concerns about the 
confidential nature of SARs, and there is no official mechanism through 
which to provide feedback.\6\ Thus, it is difficult to know whether our 
filings provide law enforcement with leads that are of a ``high degree 
of usefulness,'' as required by the statute. Therefore, we are 
compelled to calibrate our monitoring systems to the only tangible data 
we have--our decision to file a SAR. As a result, we fine-tune our 
systems to reflect our own work product, rather than to reflect law 
enforcement's priorities.
---------------------------------------------------------------------------
    \4\ In 2017, U.S. depository institutions such as banks, thrifts, 
savings and loans and credit unions alone filed 916,353 SARs. Many more 
were filed by nonbank financial institutions such as money services 
businesses, casinos and securities firms. See ``SAR Stats,'' available 
at: https://www.fincen.gov/fcn/Reports/SARStats. Accessed June 14, 
2018.
    \5\ From 2012-2014, the average number of CTRs received per year by 
FinCEN was 15,283,950. See FATF Anti-money laundering and counter-
terrorist financing measures, Mutual Evaluation of the United States, 
December 2016, pg. 54; available at: http://www.fatf-gafi.org/media/
fatf/documents/reports/mer4/MER-United-States-2016.
    \6\ Disclosure of the existence of a SAR to unauthorized persons 
may result in criminal penalties. 31 U.S.C.  5322. While this 
prohibition should not apply to a communication between a bank that 
filed a SAR and law enforcement as they are both authorized persons, 
the strict nature of the SAR confidentiality rule leads some to err on 
the side of caution in the absence of explicit permission.
---------------------------------------------------------------------------
    Let me give you an example of the resources M&T expends on its SAR 
filings. We use both automated and manual processes to monitor for 
suspicious activity, which trigger tens of thousands of alerts each 
year that are investigated further by AML compliance employees, who 
ultimately make a determination to either close out the alert or 
designate it as a case in need of further review. If an alert becomes a 
case, resources will then be devoted to investigating the case which, 
depending on the activity under investigation, could take anywhere from 
a few hours to a few weeks to conclude. Once an investigation is 
complete, we make a determination to either file a SAR or document our 
decision not to file a SAR. Of the thousands of cases we investigate, 
only 39 percent become SARs. However, each investigation must be 
meticulously documented to meet regulatory expectations. On average, an 
investigation consists of seven pages of narrative text and 50 
attachments, which average 250-280 pages total, regardless of whether 
that investigation results in a SAR.\7\
---------------------------------------------------------------------------
    \7\ Attachments to an investigation may include copies of account 
statements, results of internet and database searches on the customer 
and transaction counterparties, Secretary of State filings for legal 
entities and documents evidencing transaction reviews.
---------------------------------------------------------------------------
    This is why I believe it is essential for policymakers to reform 
the AML/CFT regime so that institutions are able to deploy resources 
more efficiently and improve efforts to provide useful information to 
law enforcement, national security and intelligence officials. This 
change should be founded on greater coordination and communication 
between the public and private sector. The U.S. Department of the 
Treasury should establish annual priorities for the regime, which could 
in turn form the basis for financial institution supervision and exams. 
Within this effort, it could also rationalize the broad reporting 
requirements implemented under the BSA, which would allow institutions 
to further tailor the resources they deploy to AML/CFT priorities. In 
addition, greater information sharing between law enforcement and 
financial institutions would allow institutions to calibrate their 
monitoring systems and to detect suspicious activity that is meaningful 
to law enforcement. Furthermore, institutions should have the legal and 
regulatory flexibility to explore innovative technological solutions to 
AML/CFT compliance, either individually or in concert with their peers. 
Finally, Congress should consider changes to beneficial ownership rules 
in order to facilitate more transparency and the collection of 
consistent data to prevent companies from obscuring their ownership, 
thereby providing them with the means to hide illicit proceeds. I will 
address each of these recommendations in the remainder of my testimony.
Treasury Should Set Priorities for, and Rationalize, the Regime
    As I noted previously, The Clearing House recently surveyed its 
members to better understand the resources institutions are devoting to 
AML/CFT compliance in the United States. Of the 19 TCH members surveyed 
(with assets ranging from 50 billion to over 500 billion dollars), 17 
institutions employ a total of over 14,000 individuals, with 14 
institutions collectively spending nearly $2.4 billion on AML/CFT 
compliance. With all of these resources invested in compliance, 18 
institutions reported that they collectively filed more than 640,000 
SARs and 17 institutions indicated that they filed 5.2 million CTRs in 
2017. Furthermore, a median of 14 respondents indicated some form of 
law enforcement contact (including subpoenas, national security letters 
or requests for SAR backup documentation) on only 4 percent of the SARs 
they filed in 2017, whereas 10 institutions reported hearing from law 
enforcement on roughly 0.44 percent of the CTRs they filed.
    Institutions of all sizes are devoting substantial resources to 
AML/CFT compliance, yet, in the current regime, little feedback is 
provided to determine whether those efforts are useful or reflect law 
enforcement's priorities. Moreover, the absence of specific measures of 
effectiveness, has led some to focus on the auditability of procedures 
and level of documentation of decisions as an inexact proxy for 
effectiveness, which encourages financial institutions to invest 
heavily in activities that reduce criticism of records, rather than in 
activities aimed at identifying suspicious activity in innovative ways.
    Furthermore, U.S. financial institutions often have more than one 
regulator examining their AML program, with each individual regulator 
having their own priorities and viewpoints. At M&T alone, we have five 
regulators that evaluate us for compliance with AML laws and 
regulations. This is why it is important for Treasury, working with law 
enforcement, to establish a process for prioritizing the matters 
investigated by financial institutions subject to the BSA. This 
prioritization effort would convene relevant public sector actors that 
are the end users of the BSA information financial institutions provide 
to the Government--notably law enforcement, national security and 
intelligence officials, regulators and other stakeholders, with the 
resulting priorities forming the basis for AML/CFT examinations at 
covered institutions. Such a process would further encourage banks to 
devote resources to activities that proactively address regime 
priorities, rather than focusing their resources on proxies like 
auditability and documentation. It would also ensure greater AML exam 
consistency across financial institutions and amongst examining 
agencies. I understand that FinCEN, a division of the Treasury 
Department, has begun to have these discussions with relevant 
stakeholders, an effort that should be encouraged and expanded.
    In addition, the Treasury Department, in consultation with law 
enforcement and the Federal banking agencies, should conduct a review 
of the current BSA/AML reporting regime with the goal of de-
prioritizing the investigation and reporting of activity of limited law 
enforcement or national security consequence to allow financial 
institutions to reallocate resources to higher value AML/CFT efforts. 
Analysis of how SAR data is actually used by law enforcement could lead 
to the streamlining and automation of data submissions, rather than the 
current highly manual and cumbersome reporting process for some types 
of suspicious activity. This review is possible because FinCEN has data 
that banks do not have--namely, information as to what SARs are 
accessed by law enforcement and at what frequency. Such a review could 
also investigate how to modernize, tailor and clarify BSA reporting 
requirements while increasing law enforcement feedback within the 
system. For example, the review may find that provision of data to law 
enforcement in a streamlined format, rather than the narrative format 
required by the SAR form, may actually be more useful as law 
enforcement increasingly uses modern tools to ``data mine'' the SAR 
database, rather than performing manual SAR reviews. Thus, a data-
driven review of SAR usefulness may both enable institutions to better 
calibrate their monitoring system to provide law enforcement with 
higher value information and provide that information in a more 
efficient and useful manner. Again, I understand that FinCEN is working 
on such an analysis and I hope that the results will be shared with a 
broad group of constituents so that meaningful and workable changes can 
be identified and implemented.
The Public and Private Sector Should Exchange More Information
    As this hearing is meant to focus on barriers to successful illicit 
threat identification and mitigation, it is important to highlight that 
one of the greatest barriers to an effective regime is the lack of 
communication between the public and private
sector--notably between law enforcement and financial institutions. I 
have already described how feedback from law enforcement with respect 
to SAR filings can help
financial institutions to better target their transaction monitoring 
toward better identifying suspicious activity. Financial institutions 
can also use investigative data provided by law enforcement such as IP 
addresses, geographic locations, names of
suspected foreign shell companies and other items to develop targeted 
leads on potential suspicious activity.
    There are examples of this type of information sharing in the 
United States, but the examples tend to be ad hoc and not consistently 
applied across financial institutions.\8\ For example, some law 
enforcement agencies and prosecutor's offices have held industry 
outreach conferences with select banks to share high-level information 
from recent cases as examples of certain typologies of illicit finance. 
FinCEN has issued periodic Advisories to notify financial institutions 
of high-level red flags associated with some kinds of criminal 
activity. FinCEN has also recently embarked on an effort to share more 
detailed information with some banks in the United States, through a 
program called ``FinCEN Exchange.'' In addition, law enforcement 
agencies can seek information regarding specific AML/CFT suspects 
through the USA PATRIOT Act's 314(a) provisions and other legal means. 
However, there remains a need for greater and more routine sharing and 
collaboration between the industry and law enforcement to better 
address the illicit finance risks facing our country. More routine 
sharing of specific and actionable information to a broader set of 
financial institutions could improve the effectiveness of the entire 
regime. Expansion of 314(a) to allow broader secure and confidential 
sharing with participant banks, which should be able to voluntarily 
participate based upon their risk profile and individual circumstances, 
would facilitate this communication.
---------------------------------------------------------------------------
    \8\ The U.K.'s Joint Money Laundering and Intelligence Taskforce 
(JMLIT) and Canada's Project Protect are two international examples of 
such efforts. For more information on JMLIT, Project Protect and other 
public-private sector information sharing partnerships, see Nick J 
Maxwell and David Artingstall, The Role of Financial Information-
Sharing Partnerships in the Disruption of Financial Crime, Occasional 
Paper, Royal United Services Institute for Defence and Security 
Studies, October 2017, available at rusi.org/sites/default/files/
201710_rusi
_the_role_of_fisps_in_the_disruption_of_crime_maxwwell_artingstall_ 
web_2.pdf.
---------------------------------------------------------------------------
Financial Institutions Should have the Flexibility to Adopt Innovative 
        Technologies
    In addition to setting AML/CFT priorities, rationalizing regulatory 
requirements, and improving public-private sector information sharing, 
it is important for institutions of all sizes to be able to embrace the 
innovative technologies available to them to better detect and report 
on suspicious activity. We must be cognizant of the fact that money 
laundering happens at banks of all sizes with differing levels of 
resources and sophistication. We also know that illicit finance often 
moves between multiple financial institutions as criminal actors work 
to complicate and conceal the money trail. Therefore any effort to 
encourage technological innovation within the industry should be 
flexible enough for institutions of all sizes to investigate them 
further--whether through a shared utility model or as an individual 
investor.
    Congress should explore whether expansion of the ``safe harbor'' 
language within Section 314(b) of the USA PATRIOT Act, which presently 
provides a legal pathway for financial institutions to share 
information on potential money laundering or terrorist financing 
investigations with each other in certain circumstances, could 
facilitate these efforts.\9\ Explicitly allowing banks to share 
information with each other under 314(b) for the purpose of working to 
detect potential suspicious activity would help to ensure that such 
efforts do not encounter legal or regulatory hurdles to innovation.
---------------------------------------------------------------------------
    \9\ Section 314b of the USA PATRIOT Act allows participant 
financial institutions to share information ``regarding individuals, 
entities and organizations engaged in or reasonably suspected based on 
credible evidence of engaging in terrorist acts or money laundering 
activities.'' This permission to share confidential information is 
known as a ``safe harbor.''
---------------------------------------------------------------------------
Congress Should Pass Beneficial Ownership Legislation
    Finally, I support Congressional efforts to establish a nationwide 
framework for the collection of beneficial ownership information by a 
trusted Government body and to provide that data to qualified financial 
institutions and law enforcement. During my time at M&T, my team has 
investigated instances where shell companies appear to have been used 
to attempt to obfuscate the real actors behind transactions to move 
funds secretly to illicit actors. Based upon discussions with law 
enforcement and former prosecutors, shell companies are routinely used 
for this purpose. While the new CDD rule requires banks to ask their 
legal entity customers to certify as to their ownership, banks cannot 
independently verify that the information provided is accurate. A 
nationwide secure database of ownership information would be a useful 
investigative tool.
Conclusion
    AML/CFT reform is needed to make the U.S. regime more effective and 
to allow institutions, like M&T, to redeploy or invest their limited 
resources in efforts and technology that will allow them to provide 
information that is of greater utility to law enforcement. I applaud 
the Subcommittee's interest in this important topic. Discussions such 
as these will assist in allowing banks to continue to support law 
enforcement's efforts to keep our communities safe and to cutoff the 
flow of illicit funds through the U.S. financial system. I thank you 
for the opportunity to testify and look forward to your questions.
                                 ______
                                 
                    PREPARED STATEMENT OF CHIP PONCY
   President and Co-Founder, Financial Integrity Network, and Senior 
            Advisor, Center on Sanctions and Illicit Finance
                             June 20, 2018
    Chairman Sasse, Ranking Member Donnelly, and other distinguished 
Members of the Senate Banking Subcommittee on National Security and 
International Trade and Finance, I am honored by your invitation to 
testify before you today.
    This hearing on money laundering and innovative techniques to 
counter such criminal activity comes at an important time. Today's 
criminal organizations continue to exploit the U.S. and international 
financial system to launder criminal proceeds and finance illicit 
activities ranging from terrorism to the proliferation of weapons of 
mass destruction. Such exploitation capitalizes on the growing 
complexities of the international financial system and weaknesses in 
institutional, jurisdictional, and global counter-illicit financing 
regimes. Some of these weaknesses stem from a failure to implement 
global standards designed in large part by U.S. leadership to combat 
crossborder money laundering and other financial crime. Other 
weaknesses stem from outdated approaches to combating these threats. 
Congressional attention and action is urgently needed to address these 
challenges.
    In recent years, Congress has indicated interest in strengthening 
the U.S. anti-money laundering and countering the financing of 
terrorism (AML/CFT) regime to meet these challenges. Over the past year 
alone, several hearings in both the Senate and the House have focused 
on systemic reform to modernize U.S. efforts to combat money laundering 
and all forms of illicit financing activity. I am hopeful that my 
testimony today will assist this Subcommittee in supporting and 
accelerating these reform interests.
    Such reform should be grounded in an understanding of how money 
laundering, financial crime, and corresponding AML/CFT regimes have 
evolved to become clear matters of national and collective security. 
Such reform should also be informed by an understanding of how criminal 
organizations and other national security threats continue to exploit 
the financial system to launder criminal proceeds and finance illicit 
activity. Such reform should close critical gaps in the U.S. AML/CFT 
regime, including by ending the creation of anonymous companies in the 
United States. Finally, such reform should encourage innovative 
approaches and capitalize on new technologies to buildupon and improve 
U.S. and global AML/CFT frameworks.
    The United States has one of the most effective AML/CFT regimes in 
the world. Yet many of the global and systemic challenges to AML/CFT 
regimes abroad also confront our own AML/CFT regime. These challenges 
present opportunities for criminal organizations and other threats to 
launder money and finance illicit activities that undermine our 
collective security, the integrity of our financial system, and 
corresponding confidence in our markets. Our capability and willingness 
to address these challenges at home will substantially impact our 
credibility and capability in driving other countries to do the same--
and in holding accountable those countries that fail to meet such 
standards. Given the increasingly globalized nature of organized crime 
and illicit finance, our AML/CFT reform efforts must consider these 
important ramifications.
    My testimony today focuses on each of these points as follows:

  <bullet>  Section I summarizes the modern evolution of money 
        laundering and financial crime and the growing importance of 
        AML/CFT regimes in combating these threats to protect our 
        collective security and safeguard the integrity of the 
        financial system.

  <bullet>  Section II presents characteristics of money laundering, 
        terrorist financing, and other financial crime and describes 
        how these threats chronically exploit systemic challenges to 
        financial transparency and accountability.

  <bullet>  Section III outlines reforms that Congress should pursue to 
        modernize and secure a more effective and sustainable AML/CFT 
        regime. Such reforms should capitalize on U.S. leadership that 
        has guided and galvanized a common commitment to combating 
        money laundering and financial crime across nearly all 
        financial centers and jurisdictions over the past several 
        generations.

    My testimony draws in large part from prior testimony that I have 
provided before other Congressional committees and subcommittees 
considering these issues over the past 3 years. As with such prior 
testimony, I am grateful for the incredible dedication of my partners, 
colleagues, and friends at the Financial Integrity Network, the Center 
on Sanctions and Illicit Finance, the Treasury and across the U.S. 
Government, and in the global AML/CFT community--including the other 
expert witnesses who are testifying before you today. The primary basis 
of my testimony is the experience that I have gained in working with 
these experts and stakeholders to help shape and implement AML/CFT 
policy over the past 16 years in the U.S. Government, the international 
community, and the private sector.
I. The Modern Evolution of Money Laundering, Financial Crime, and the 
        AML/CFT Regime
    Since the initial adoption of the Bank Secrecy Act (BSA) almost 50 
years ago--and particularly since the terrorist attacks of 9/11--money 
laundering, financial crime, and AML/CFT regimes have evolved 
dramatically. This evolution is fundamentally characterized by an 
expansion of money laundering and AML/CFT scope, stakeholder interest, 
and objectives. This evolution is also characterized by the growing 
complexity, importance, and globalization of money laundering and AML/
CFT regimes.
    Understanding this evolution, described in greater detail below, is 
critical to understanding how modern criminal organizations launder 
money and finance other illicit activity. Such an understanding also 
provides an essential basis for prioritizing and guiding AML/CFT reform 
efforts.
(i) Expanding substantive scope, stakeholder interest, and objectives
    As described in greater detail below, the expanding scope, 
stakeholder interest, and objectives of money laundering, financial 
crime, and corresponding AML/CFT regimes is reflected by:

  a.  The expansion of money laundering predicate offenses to encompass 
        virtually all forms of serious criminal activity;

  b.  The increasing reliance of sanctions compliance and broader risk 
        management on effective implementation of AML/CFT regimes; and

  c.  The emergence of national security and financial integrity 
        objectives of AML/CFT regimes.

    a. Expansion of money laundering predicate offenses. Our AML/CFT 
regime, launched with the introduction of the BSA, initially focused on 
reporting bulk cash movements to assist in tax compliance, the 
criminalization of drug money laundering, and the detection and 
confiscation of drug trafficking proceeds. Through the expansion of 
predicate offenses, our AML/CFT regime now encompasses practically all 
serious criminal activity--including various forms of fraud, 
corruption, terrorist financing, sanctions evasion, and WMD 
proliferation achieved through the violation of export controls or 
smuggling.
    This expanded scope has significant consequences for traditional 
AML risk management across our financial system, as these different 
types of predicates expose additional financial products, services, 
relationships, institutions, markets, and sectors to different kinds 
and degrees of illicit financing risk. It also expands the range of law 
enforcement agencies that rely upon financial information to pursue 
various criminal networks that launder their proceeds through our 
increasingly globalized financial system.
    b. Increasing reliance of sanctions compliance and broader risk 
management on effective implementation of AML/CFT regimes. The scope of 
AML/CFT regimes has also expanded as sanctions compliance has 
increasingly relied upon and blended with AML/CFT risk management. It 
is often impossible to know whether any given financial account or 
transaction may involve a sanctioned party, activity, or jurisdiction 
without performing robust due diligence driven by AML regulatory 
requirements.
    As sanctions programs have become more complex, their effective 
implementation relies upon more sophisticated development, integration, 
and application of underlying AML programs to assess and manage 
sanctions risk. Consequently, sanctions policy, targeting, compliance, 
and enforcement authorities--as well as sanctions compliance programs 
and officers in financial institutions--have become increasingly 
reliant upon and integrated into AML/CFT regimes and AML compliance 
programs.
    This reliance presents challenges and opportunities for integrating 
the governance, implementation, and enforcement of AML/CFT regimes with 
sanctions compliance and risk management.
    c. Expanding objectives of AML/CFT regimes. The objectives of AML/
CFT regimes have also evolved, consistent with the expansion of such 
regimes' scope and stakeholder interests. Following the terrorist 
attacks of 9/11, Congress expanded the purpose of the BSA ``to require 
certain reports or records where they have a high degree of usefulness 
in criminal, tax, or regulatory investigations or proceedings, or in 
the conduct of intelligence or counterintelligence activities, 
including analysis, to protect against international terrorism.'' While 
this expansive criminal justice, tax compliance, regulatory, 
intelligence, and counterterrorism set of objectives is more important 
than ever, it is also incomplete.
    Protecting the integrity of the financial system has also become an 
essential objective in its own right. Such integrity is fundamental for 
the financial system to maintain not only the security of the customer 
assets it holds, but also the confidence of markets and the general 
public as an industry protected from criminal abuse. In addition to law 
enforcement and other investigative and intelligence authorities, 
financial institutions--together with the customers, markets, and 
global economy they service--are direct beneficiaries of AML/CFT 
regimes. Financial institutions are end users of BSA/AML recordkeeping 
and reporting, relying on such information to identify and manage all 
manner of illicit financing risk for purposes of protecting the 
integrity of the financial system.
    This reality is evident in the way we talk about actions taken 
under various AML/CFT authorities--both under our own AML/CFT regime, 
and in concert with AML/CFT authorities abroad. Such actions are 
intended in large part to protect the integrity of the financial 
system.
    Recognizing this expansive objective underscores the primary role 
of financial institutions in both implementing and informing our AML/
CFT regime. It also underscores the importance of establishing robust 
public-private partnerships, including at policy and operational 
levels, to effectively implement and inform our AML/CFT regime.
    Perhaps most importantly, AML/CFT regimes have evolved more broadly 
into a financial security regime, essential to protecting our national 
and collective security. The financial transparency and accountability 
created through AML/CFT regimes enable effective development and 
implementation of sanctions policies and other targeted financial 
measures to combat a growing array of national and collective security 
threats. Such transparency and accountability also generate financial 
information that intelligence and national security communities 
increasingly rely upon to identify and disrupt these threats.
(ii) Heightened complexity and importance
    As criminal organizations, money laundering activities, and 
corresponding AML/CFT regimes have expanded across scope, stakeholder 
interest, and objectives, they also have become more complex and 
important. This is true for public sector authorities, the private 
sector, and the general public.
    a. Heightened complexity of transnational crime and corresponding 
AML/CFT regimes. The heightened complexity of AML/CFT regimes has 
inevitably followed the globalization and increased sophistication and 
intermediation of the financial system and the criminal organizations 
that exploit it. This includes within and across financial products and 
services; banks, nonbank financial institutions, and designated nonbank 
financial businesses and professions; and countries, sub-national 
jurisdictions, and supra-national jurisdictions.
    In combating various forms of illicit finance, AML/CFT authorities 
and financial institutions are increasingly challenged to understand 
and keep pace with these evolving complexities of the modern financial 
system. Such an understanding is required as a baseline for identifying 
and combating all manner of illicit finance that exploits the 
vulnerabilities presented by such a complex financial system.
    The heightened complexity of AML/CFT regimes has also been driven 
by the globalization of criminal and illicit financing networks and the 
blending of illicit financing risk--including across money laundering, 
terrorist financing, sanctions evasion, bribery and corruption, 
proliferation finance, tax evasion, and state and nonstate actors. 
Addressing such heightened complexity requires more specialized and 
integrated expertise across the core stakeholders of AML/CFT regimes. 
Such expertise, in turn, demands targeted and integrated training about 
how the financial system works, how illicit actors abuse it, and the 
particular roles and responsibilities that stakeholders must fulfill to 
effectively combat such abuse.
    b. Heightened importance of transnational crime and corresponding 
AML/CFT regimes. As AML/CFT regimes have expanded and become more 
complex, they also have become more important--for law enforcement, 
national and collective security, and the integrity of the financial 
system itself.
    The heightened complexity and globalization of criminal and illicit 
financing networks has made financial information more important than 
ever before to law enforcement agencies pursuing serious criminal 
activity. Federal law enforcement agencies have repeatedly testified 
that the BSA database is among the most important sources of 
information they have in combating various forms of serious and 
organized crime, from drug trafficking and fraud to tax evasion and 
terrorist financing.
    In addition, the post-9/11 development and integration of CFT 
strategies and policies into the AML regime and the rise of 
transnational organized crime have attached clear national security 
importance to our AML/CFT regime. As sanctions and other national 
security authorities have become more reliant upon financial 
information and disruption in the post-9/11 era, the AML/CFT regime has 
become a crucial foundation for applying financial and economic 
pressure as an instrument of national and collective security. This is 
evident in the financial and economic pressure, isolation, and 
disruption campaigns the United States has led against al Qaeda, Iran, 
ISIS, North Korea, and rogue financial institutions such as Banco Delta 
Asia or Liberty Reserve. It is now difficult to think of any response 
to a national or collective security threat that does not involve a 
significant financial element reliant on implementation of AML/CFT 
regimes.
    The pervasive rise of transnational organized crime has also 
emerged as a clear threat to our national security. This is most 
evident in our 2011 National Security Strategy to Combat Transnational 
Organized Crime, including Executive Order 13581. Quite simply, we now 
need national security authorities to complement traditional law 
enforcement authorities to combat this threat. Given the expansion of 
AML predicates across the full spectrum of transnational organized 
criminal activity, our AML/CFT regime has clearly become an integral 
part of protecting our national security, including through the use of 
national security authorities to attack criminal activities through the 
expansion and leveraging of AML/CFT regimes.
    Finally, as discussed above, our AML/CFT regime is crucial to 
protecting the integrity of the financial system itself. This 
importance is underscored by the rise of cybercrime, identity theft, 
and other forms of fraud that increasingly and systematically target 
our financial institutions and our financial system as a whole.
(iii) Globalization of money laundering, financial crime, corresponding 
        AML/CFT regimes, and the broader financial integrity and 
        security mission
    For the past three decades, the United States has led the 
globalization of AML/CFT regimes in regions and jurisdictions around 
the world, including with its partners in the G7, the G20, the 
Financial Action Task Force (FATF), nine FATF-Style Regional Bodies 
(FSRBs), the World Bank, the IMF, and the United Nations. This 
sustained effort and commitment has been grounded in the recognition of 
the growing transnational and ultimately global threat presented by an 
expanding range of money laundering and other illicit financing. This 
effort has also created a truly global framework essential for 
combating serious criminal activity, protecting our national and 
collective security, and safeguarding the integrity of the 
international financial system.
    After 9/11, the global CFT campaign led by the United States became 
an instrumental factor in accelerating a global understanding of the 
importance of AML/CFT regimes to our collective security. Combating 
financial crime, protecting the integrity of the financial system, and 
promoting effective implementation of sanctions against threats to our 
national and collective security have since become central to 
Treasury's mission and to that of finance ministries around the world. 
Together with partner jurisdictions and organizations around the world, 
the United States has led a global commitment to expanding AML/CFT 
regimes and strengthening their implementation to advance these 
objectives.
    This commitment is evident in the rapid evolution of the global 
counter-illicit financing framework. This framework continues to drive 
development and implementation of comprehensive jurisdictional AML/CFT, 
counter-proliferation, and financial sanctions regimes. This framework, 
largely led by the work of the FATF, manages jurisdictional 
participation in conducting the following sets of activities:

  <bullet>  Developing typologies of illicit financing trends and 
        methods;

  <bullet>  Deliberating counter-illicit financing policies and issuing 
        global counter-illicit financing standards;

  <bullet>  Conducting and publishing regular peer review assessments 
        of jurisdictional compliance with the FATF's global standards; 
        and

  <bullet>  Managing follow-up processes that both assist jurisdictions 
        and hold them accountable in implementing the FATF standards.

    Through the FATF network of assessor bodies, the overwhelming 
majority of countries around the world are incorporated into this 
counter-illicit financing framework.
    The global standards issued by the FATF and assessed through this 
global framework cover a broad range of specific measures to protect 
the integrity of the financial system from the full spectrum of illicit 
finance--including money laundering, terrorist financing, proliferation 
finance, serious tax crimes, and corruption. These global standards 
create a conceptual and technical roadmap for countries and financial 
institutions to develop the capabilities required to advance and secure 
the integrity of the global financial system.
    Implementing the FATF global standards requires a whole-of-
government approach in collaboration with the private sector, 
particularly financial institutions. It is a massive undertaking. And 
it is essential to combat transnational organized crime, safeguard the 
integrity of the financial system, and protect our national and 
collective security.
    Peer review assessments over the past several years demonstrate 
that most countries have taken substantial steps toward implementing 
many if not most of the requirements covered by the FATF global 
standards. Collectively, this work represents a tremendous 
accomplishment in creating a firm global foundation for financial 
integrity and security, based on effective development and 
implementation of comprehensive AML/CFT regimes.
    Nonetheless, these comprehensive jurisdictional assessments also 
reveal a number of deep-seated, systemic challenges to AML/CFT regimes. 
These challenges, discussed and addressed in the next two sections, are 
also evident from consistent typologies and cases of money laundering 
and illicit finance, as well as from U.S. enforcement actions taken 
against financial institutions in recent years.
II. Financial Vulnerabilities Exploited by Criminal Organizations and 
        Other Collective Security Threats
    Strengthening our AML/CFT system against money laundering and other 
financial crime requires an understanding of how such illicit activity 
is perpetrated. The details of such methods and schemes will depend on 
the particular form of financial crime and the criminal or other 
illicit organizations involved. This requires subject matter expertise 
across various types of illicit finance as well as various illicit 
actors and groups and the regions in which they operate. However, all 
forms of money laundering and financial crime exploit vulnerabilities 
in the financial system and in AML/CFT regimes. Many of these 
vulnerabilities represent challenges to financial transparency and 
accountability based on the evolution of the financial system and AML/
CFT regimes as described in Section I.
    In the sub-sections below, I will briefly outline characteristics 
of money laundering, terrorist financing, and other forms of illicit 
finance. I will then explain and provide examples of how these 
characteristics drive all manner of illicit financing to exploit 
vulnerabilities stemming from systemic challenges to financial 
transparency and accountability.

  (i)  Characteristics of money laundering, terrorist financing, and 
        other forms of illicit finance

    Criminal organizations generally launder money by placing, 
layering, and integrating the proceeds of their criminal activity into 
the international financial system and, ultimately, the global economy. 
Terrorist organizations may finance their operations through various 
criminal activities or noncriminally derived funds (e.g., state 
sponsorship, charitable donations, or taxes on local populations under 
terrorist control), but they commonly exploit the financial system to 
efficiently move such funds in support of terrorist activity, actors, 
or networks. Both criminal and terrorist organizations escape detection 
through techniques that facilitate anonymity and obfuscate meaningful 
financial investigation into the source or destination of their funds. 
In addition, these organizations generally seek to create a perception 
of legitimacy with respect to their financial transactions, laundered 
proceeds, and their beneficiaries.
    These features of anonymity, obfuscation, and apparent legitimacy 
also commonly characterize other forms of illicit finance, including 
proliferation financing, sanctions evasion, and tax evasion.
    Depending on the specific criminal activity and organization, money 
laundering and other forms of financial crime may assume any one or 
combination of a variety of particular methods or techniques. Some of 
these may be especially relevant to cash-based predicates (e.g., 
structured cash placements by drug trafficking organizations). Others 
may be more prevalently associated with noncash-based predicates or 
schemes (e.g., third-party wire transfers in a financial fraud scheme). 
More specific money laundering predicates or types of illicit financing 
may have more particular characteristics--such as the involvement of 
senior government officials or related parties (generally known as 
politically exposed persons, or PEPs) in significant corruption-related 
money laundering cases.
    Effectively combating sophisticated financial crime networks today 
requires a significant investment to understand detailed methods and 
techniques associated with different illicit financing typologies 
employed by different criminal organizations and illicit actors. 
Targeted investigative, intelligence, and analysis resources are 
necessary to understand the financial operations of particular 
criminal, terrorist, or other illicit groups. As the scope, complexity, 
and importance of this work has grown, corresponding investments in 
AML/CFT regimes are required to address these needs.
    Yet the general characteristics of money laundering and other 
financial crime described above drive all manner of illicit finance to 
exploit systemic challenges to financial transparency and 
accountability.

  (ii)  Exploitation of systemic challenges to financial transparency 
        and accountability

    Despite variances in specific money laundering and illicit 
financing methods, criminal organizations and other collective security 
threats consistently exploit vulnerabilities stemming from systemic 
challenges to financial transparency and accountability. These 
challenges emerge largely from the complexities of the international 
financial system discussed in Section I above. They also emerge from 
weaknesses in the implementation or approach of AML/CFT regimes.
    Three particular financial transparency and accountability 
vulnerabilities chronically exploited by all manner of illicit finance 
include:

  (a)  Anonymous companies created in the United States and other 
        jurisdictions that fail to adopt meaningful beneficial 
        ownership disclosure and maintenance requirements for legal 
        entities;

  (b)  Financial intermediation coupled with inadequate AML/CFT 
        coverage of the financial system; and

  (c)  Information-sharing constraints that prevent financial 
        institutions and counter-illicit financing authorities from 
        identifying, pursuing, and capturing illicit financing networks 
        and assets increasingly spread across multiple financial 
        institutions and jurisdictions.

These vulnerabilities, and examples of how they are exploited by 
criminal organizations and other illicit financing actors, are briefly 
discussed below.
    a. Anonymous Companies
    For far too long, anonymous companies created in the United States 
and abroad have masked and enabled terrorist organizations, human 
traffickers, drug smugglers, and proliferators of weapons of mass 
destruction to access and exploit the international financial system. 
The range of abuse does not end there. Money laundering, tax evasion, 
grand scale corruption, sanctions evasion, fraud, and organized crime 
at large are regularly perpetrated or enabled on a worldwide basis 
through the systematic creation and use of anonymous legal entities. 
Even as the United States continues to enhance and expand its financial 
tools and power to combat money laundering and various national 
security threats, these efforts are increasingly undermined by such 
exploitation of anonymous legal entities.
    The continual creation of such legal entities right here at home 
may represent the most dangerous systemic vulnerability that the United 
States presents today to the global counter-illicit financing mission. 
Closing this vulnerability requires congressional action to reform 
company formation processes in the United States. In accordance with 
global standards that our country has urged others to adopt, such 
reform efforts must generally require the collection, maintenance, and 
disclosure of
accurate beneficial ownership information for certain legal entities 
created under laws in the United States.
    Beneficial ownership requirements for legal entities will provide 
immensely valuable information for law enforcement and other counter-
illicit finance authorities. As elaborated below, an abundance of 
testimony and evidence over the past several years demonstrates that 
investigations of legal entities implicated in all manner of criminal 
activity are all too often frustrated by a lack of meaningful 
beneficial ownership information.
    In certain higher risk scenarios, financial institutions should 
verify the beneficial ownership information obtained from their legal 
entity customers through independent corroboration of the beneficial 
owner's status. This presents significant challenges for financial 
institutions that lack independent sources of information about their 
legal entity customers. To assist financial institutions in conducting 
such verification, countries should demand beneficial ownership 
information as a condition for granting legal status to those entities 
formed under their authorities. For these reasons, the FATF global 
standards clearly require jurisdictions to impose beneficial ownership 
disclosure and maintenance requirements for legal entities formed under 
their authorities. Yet many jurisdictions fail to require companies to 
disclose their beneficial ownership as a condition of obtaining or 
maintaining their legal status. Of those jurisdictions that do require 
such disclosure, few have meaningful verification or enforcement 
processes to ensure the credibility of the beneficial ownership 
information they collect.
    Cases demonstrating criminal and other illicit abuse of such 
anonymous legal entities created in the United States and elsewhere are 
all too common. For decades, law enforcement and others have presented 
many of these cases to Congress as a basis for enacting company 
formation reform. Significant cases involving such abuse have been 
listed in various testimonies and preambles to draft legislation, 
including in a hearing earlier this year by the House Financial 
Services Committee. My own testimony in that hearing included prominent 
reporting of the following cases of criminal organizations laundering 
funds or financing illicit activity through anonymous legal entities 
created in the United States:

  <bullet>  Members of Venezuela's cabinet used an Andorran bank to 
        launder $2.5 billion in bribes. The money was concealed in 37 
        accounts under the name of Panamanian shell companies before 
        being moved to tax havens such as Switzerland and Belize. (El 
        Pais)

  <bullet>  Between 2011 and 2014 well-connected Russians used 5,140 
        shell companies that had accounts with 732 banks in 96 
        countries to move $20.8 billion out of Russia. The anonymous 
        companies signed ``loan agreements'' between themselves and 
        used fake ``defaults'' to obtain orders from corrupt courts 
        that allowed them to transfer the money out of Russia. 
        (Organized Crime and Corruption Reporting Project)

  <bullet>  Reuters reported that 118 U.S.-based shell companies in 25 
        States served as ``phantom companies'' for an Armenian crime 
        ring whose members posed as medical providers and billed 
        Medicare for than $100 million.

  <bullet>  Convicted cocaine trafficker Darko Saric used the names of 
        associates to register at least four companies in Delaware. 
        Profits from cocaine smuggled from South America to Europe were 
        channeled through those shell companies and were then used to 
        invest in businesses in Saric's native Serbia. (Organized Crime 
        and Corruption Reporting Project)

  <bullet>  According to the Panama Papers, a single Nevada firm formed 
        over 2,400 shell companies, all headquartered at the same 
        residential address and used by customers to evade over $30 
        million in Federal taxes.

  <bullet>  Corrupt FIFA official Chuck Blazer is alleged to have used 
        five shell entities, registered in the United States and the 
        Cayman Islands, to hide the bribes he extracted from companies 
        seeking to do business with the global soccer association. 
        Among other frauds, Blazer, hiding behind a shell company, 
        would make himself the beneficiary of ``consulting agreements'' 
        in order to receive illegal commissions on broadcasting rights. 
        (EDNY Indictment)

  <bullet>  In a $6 million human trafficking scheme, a Moldovan gang 
        ran employment companies that supplied hundreds of foreign 
        nationals to hotels, resorts, and casinos across the United 
        States. The gang hid their real identities behind a web of 
        shell companies registered in Kansas, Missouri, and Ohio. 
        (International Bar Association)

  <bullet>  Kingsley Iyare Osemwengie of Las Vegas, Nevada, was part of 
        a sophisticated drug trafficking organization that diverted 
        legitimate medicine such as oxycodone into the black market. He 
        laundered profits through six bank
        accounts, including those for two Nevada shell companies: High 
        Profit Investment and First Class Service. (The Oregonian)

  <bullet>  Teodoro Nguema Obiang Mangue, the vice president of 
        Equatorial Guinea, was convicted of money laundering and 
        embezzlement of more than $100 million, which was hidden in 
        California-based shell companies. (Time)

  <bullet>  On June 17, 2017, the U.S. Department of Justice reported 
        that Malaysian sovereign wealth Fund officials and their 
        associates diverted more than $4.5 billion using fraudulent 
        documents and representations to launder funds through a series 
        of complex transactions and shell companies with bank accounts 
        located in the United States and abroad. Among other purchases, 
        conspirators used a New York shell company, headquartered at an 
        accommodation address, to purchase a $4.5 million apartment. 
        The shell company was itself a wholly owned subsidiary of a 
        private wealth-management firm, so that the transaction was 
        completely anonymous. (DOJ Complaint)

  <bullet>  As widely reported last year, hackers allegedly tied to 
        North Korea stole $81 million from accounts maintained by the 
        Federal Reserve Bank of New York for the Central Bank of 
        Bangladesh. The hackers used the SWIFT messaging system to send 
        more than three dozen fraudulent money transfer requests for 
        the benefit of invented individuals and entities in the 
        Philippines, who then laundered it through casinos. (Reuters)

  <bullet>  The Islamic Republic or Iran Shipping Lines, or IRISL, a 
        state-owned enterprise, has used a web of shell companies 
        stretching across Europe and Asia to obscure the true ownership 
        of its fleet by changing the country of registration and names 
        of companies and owners in order to evade sanctions. (The New 
        York Times)

  <bullet>  Over a period of 6 years, Zhongxing Telecommunications 
        Equipment Corporation (ZTE) engaged in a scheme to ship more 
        than 20 million U.S.-origin items to Iran. ZTE used multiple 
        avenues to evade U.S. sanctions and export control regulations, 
        including establishing shell companies and falsifying customs 
        documents. (U.S. Department of the Treasury)

  <bullet>  Room 2103, Easey Commercial Building, Wan Chai, Hong Kong, 
        is the registered office of Unaforte Limited, a company accused 
        by the United Nations of violating sanctions North Korea. When 
        CNN visited the office, it found neither Unaforte nor its 
        listed company secretary, Prolive Consultants Limited. Instead, 
        room 2103 was home to a seemingly unrelated company: Cheerful 
        Best Company Services. (CNN)

  <bullet>  A 2017 asset forfeiture suit against Velmur Management, a 
        Singapore-based ``real estate management firm'' with no 
        physical office space, shows how a layered network of shell 
        companies with access to the U.S. financial system was used to 
        allow North Korea to buy $7 million in petroleum from a Russian 
        company. Velmur would receive payments made on behalf of North 
        Korea and transfer them to the Russian seller. (DOJ Complaint)

  <bullet>  On August 22, 2017, OFAC designated Mingzheng International 
        Trading Limited, a China- and Hong Kong-based front company, 
        for its involvement in evading sanctions and laundering funds 
        on behalf of North Korea.

  <bullet>  Thompson Reuters reported that former Ukrainian Prime 
        Minister Pavlo Lazarenko, once listed as the 8th most corrupt 
        leader in the world, ultimately controlled a shell company 
        that, itself acting through other shell companies, owns an 
        estimated $72 million in real estate in Ukraine.

  <bullet>  Jose Trevino Morales, the brother of two kingpins of 
        Mexico's infamous Zetas drug cartel used their main shell 
        company, named ``Tremor Enterprises'' and registered in Texas, 
        to launder at least $16 million over the course of 3 years. 
        (CNBC)

  <bullet>  Mihran and Artur Stepanyan used several anonymous companies 
        to distribute over $393 million in drugs and launder the 
        profits. (U.S. Department of Justice)

  <bullet>  In 2014, Business Insider reported that Semion Mogilevich, 
        listed on the FBI's list of the Ten Most Wanted Fugitives, used 
        a vast network of Russian shell companies to cheat the U.S. 
        stock market and steal over $150 million from investors in the 
        United States and overseas.

    These and numerous other high-profile cases present a strong 
argument against allowing the ongoing creation of anonymous legal 
entities, whether in the United States or abroad.
    The far more powerful argument lies in the cases we do not see.

    For decades, law enforcement officials have testified before 
Congress and other authorities about their consistent inability to 
pursue high priority cases involving anonymous legal entities that 
present a dead end for investigators. Similarly, sanctions authorities 
and compliance officers in financial institutions around the world 
struggle to track the myriad of shadow companies ultimately created and 
controlled by designated national and collective security threats.
    For these reasons, it is entirely unclear just how pervasive the 
exploitation of anonymous companies is. What is clear is that the 
ability to pursue investigations implicating such companies is severely 
limited by incorporation practices in the United States and other 
jurisdictions. What is also clear is that this limitation contributes 
to the broader inability of law enforcement to identify and pursue the 
overwhelming majority of illicit financing activity. Various estimates 
of money laundering, testimony from law enforcement, and the official 
recognition of organized crime as a national security threat all 
demonstrate that we may be losing the battle against transnational 
organized crime and illicit finance in the criminal justice domain.
    To reverse this sobering trend, we must assist rather than hinder 
the efforts of law enforcement and other counter-illicit financing 
authorities responsible for identifying, tracking, and tracing illicit 
actors that access and exploit the international financial system and 
global economy. Congressional legislation to end the creation of 
anonymous legal entities in the United States through company formation 
reform is essential to do this.
    b. Financial Intermediation and AML/CFT Coverage of the Complete 
        Financial System
    Financial transparency is complete only to the extent that it 
applies across the entire financial system. All financial 
institutions--including nonbanking financial institutions such as 
broker dealers, investment advisors, and money services businesses--
should be subjected to effective AML/CFT regulation, examination, and 
supervision. In addition to nonbank financial institutions, certain 
industries that can operate as de facto financial institutions or that 
facilitate access to financial services for their customers may present 
systemic vulnerabilities to illicit finance. Such industries include 
casinos, real estate agencies, dealers in precious metals and stones, 
lawyers, accountants, and trust and company service providers.
    Failure to extend meaningful AML/CFT regulation to these nonbank 
financial institutions or vulnerable industries can allow illicit 
financing networks to obtain the financial services they need without 
detection. Once illicit actors gain access to any part of the financial 
system, the highly intermediated nature of the system facilitates their 
access to other parts, including by sector or geography.
    Any unregulated or under-regulated financial sector or vulnerable 
industry also puts more pressure on those sectors that are regulated. 
It is much more difficult to detect illicit financing risks that are 
intermediated through another financial institution or through a 
customer or account that represents unknown third-party interests. 
Correspondent relationships with unregulated financial institutions or 
vulnerable industries that lack AML/CFT controls allow criminals to 
access even well-regulated financial institutions through the back 
door.
    For this reason, correspondent relationships are generally 
considered high risk under FATF global standards, even between 
financial institutions that are well-regulated for AML/CFT.
    Correspondent relationships with financial institutions that lack 
AML/CFT regulation may be prohibitively high risk. The same may also be 
true of accounts with businesses from other vulnerable industries that 
lack AML/CFT regulation.
    In light of these concerns, FATF global standards direct countries 
to extend AML/CFT preventive measures across all financial sectors and 
vulnerable industries, including the legal and accounting professions. 
Covering all of these sectors and industries can challenge considerable 
political interests and entails substantial costs. As a result, many 
countries, including the United States, lack full AML/CFT coverage of 
their financial systems or vulnerable industries. These gaps in 
coverage put more pressure on banks and other sectors that are covered 
and present systemic challenges to financial transparency.
    Cases demonstrating criminal exploitation of these systemic 
vulnerabilities through financial intermediation are also common, 
including those involving unregulated gatekeepers such as law firms 
holding escrow accounts for underlying client interests. A particularly 
prominent case in recent years is the civil forfeiture action involving 
the 1Malaysia Development Berhad Sovereign Wealth Fund (1MDB). Founded 
in 2009 by Prime Minister Najib Razak, 1MDB was created as a 
development fund to boost Malaysia's economy. However, a multinational 
investigation involving the United States Department of Justice 
indicates that high-level officials at 1MDB and their associates 
misappropriated more than $3.5 billion from the development fund 
between 2009 and 2015.
    In this case, law firms provided relatively anonymous channels for 
laundering a significant portion of misappropriated funds. Between 
approximately October 21, 2009, and October 13, 2010, 11 wire transfers 
totaling approximately $368 million were sent from a shell company 
account in Switzerland to an Interest on Lawyers Trust Account (IOLTA) 
held by a prominent global law firm headquartered in the United States. 
Participants in the scheme then withdrew funds transferred to the 
IOLTA, which were then used to purchase assets and invest in business 
interests for their personal benefit. Purchases included luxury real 
estate, a Beverly Hills hotel, a private jet, and a major Hollywood 
motion picture.
    In this case, criminals were able to launder money through a law 
firm not subject to the AML requirements applicable to the financial 
services industry. Through IOLTA accounts, members of the 1MDB scheme 
could do an end-run around customer due diligence and suspicious 
activity reporting requirements, bringing criminal proceeds into the 
United States through a de facto back door correspondent. To decrease 
these risks, gatekeeper accounts held for the benefit of third parties 
(such as IOLTAs) should be required to comply with basic AML 
requirements such as CDD and AML programs, in accordance with global 
standards.
    c. Information-Sharing Constraints
    Illicit financing networks, like the business of most enterprises, 
almost always implicate more than one financial institution. Whether in 
the process of raising, moving, using, or laundering funds associated 
with illicit activity, such networks almost invariably transact across 
multiple financial institutions. For the illicit financing networks of 
most pressing concern, transactions also often cross multiple 
jurisdictions. Identifying, tracking, and tracing these networks 
therefore depends critically upon information-sharing across financial 
institutions and across borders.
    FATF global standards require or encourage countries and financial 
institutions to share information in many ways. However, implementation 
of such information-sharing measures is routinely constrained or 
prohibited by data protection, privacy, or business interests, or by 
liability concerns associated with these interests. Many counter-
illicit financing professionals in governments and in financial 
institutions consider data protection and privacy to be the ``new bank 
secrecy'' that was the genesis for much of interest in creating the 
FATF almost three decades ago.
    The systemic challenge posed by these information-sharing 
constraints is perhaps most evident in the risk management programs of 
global banks and large financial groups. FATF global standards direct 
countries to require such banks and financial groups to develop risk 
management programs that cover their entire enterprise. The wide scope 
of these programs is deliberately aimed at identifying and addressing 
illicit financing risks across all branches and affiliates of the bank 
or financial group, wherever located. Yet data protection, privacy, and 
other restrictions in many countries prohibit such banks or financial 
groups from sharing much of the information that is relevant or even 
essential to such enterprise-wide risk management programs. These 
restrictions apply even when the information sought is intended to be 
kept entirely within the financial group's enterprise.
    Even more problematic for these institutions, information-sharing 
requirements and prohibitions from different countries can conflict 
with one another, making it impossible to comply with the laws or 
expectations of different financial centers in which global banks and 
financial groups operate.
    Information-sharing challenges associated with financial 
intermediation and illicit finance are not limited to cross-border 
scenarios or to risk management programs. Even within jurisdictions, 
many of the same constraints prevent financial institutions from 
sharing information that can be critical in identifying or addressing 
illicit financing risks. This presents opportunities for countries, 
including the United States, to begin addressing these challenges 
through domestic information-sharing enhancement processes, in 
partnership with their financial institutions.
    The sensitivity of financial information and the legitimate 
interests behind data protection and privacy raise important 
considerations for policymakers in determining how best to address 
these information-sharing challenges. Although more work is needed to 
better understand these challenges and how best to overcome them, it is 
clear that the lack of proactive or even reactive information-sharing 
between and among financial institutions presents a systemic challenge 
to financial transparency.
    It is also clear that criminal organizations and actors exploit or 
benefit from these information-sharing weaknesses to launder 
substantial amounts of money. The Madoff Ponzi Scheme securities fraud 
case exemplifies how poor information-sharing creates blind spots where 
money launderers can act for years without
consequence. Between 1986 and 2008, one of the largest global banks 
headquartered in the United States maintained accounts for Madoff's 
company and invested proprietary and customer funds in derivative 
securities products based on Madoff's own fund. Due to legal 
information-sharing ambiguities, a lack of formal policies and 
procedures, and a stove-piping of due diligence functions, the bank's 
individual lines of business, geographic regions, and compliance units 
failed to effectively communicate with each other. Thus, while 
individual branches, compliance officers, and executives understood 
that their customer could be orchestrating a multi-billion dollar 
international fraud scheme, either this information would not be shared 
with other offices or, when sharing occurred, the offices and personnel 
who received this information would not act upon it.
    As with the examples provided above demonstrating criminal 
exploitation of other systemic transparency challenges, numerous other 
cases reflecting criminal exploitation of information-sharing barriers 
exist. These cases collectively show that criminal organizations and 
other illicit actors--regardless of their specific methods and 
characteristics--will continue to launder money and perpetrate other 
financial crimes by exploiting systemic challenges to financial 
transparency and accountability.
III. Congressional Action Required To Encourage Innovation and Enhance 
        the Effectiveness and Sustainability of AML/CFT Regimes
    The evolution of money laundering, financial crime, and AML/CFT 
regimes--coupled with the consistent criminal exploitation of systemic 
vulnerabilities described in Section II--provides a clear basis and 
direction for modernizing and reforming AML/CFT regimes. Such reform 
should fundamentally encourage innovation to enhance the effectiveness 
and sustainability of AML/CFT regimes in combating the full range of 
illicit financing activity and actors. In the United States, these 
efforts should include Congressional action amending the BSA.
    In a hearing before the House Financial Services Subcommittee on 
Terrorism and Illicit Finance last November, I outlined a comprehensive 
approach for Congress to lead such BSA modernization and reform. My 
testimony offered detailed recommendations for Congress to consider in 
developing legislation.
    These recommendations were broadly guided by the following three 
fundamental principles of AML/CFT reform:

  <bullet>  Promote more complete, effective, and efficient financial 
        transparency, including by facilitating systemic reporting and 
        sharing of information at a lower cost to financial 
        institutions;

  <bullet>  Exploit such financial transparency and information more 
        effectively and consistently by investing in targeted financial 
        investigative and analytic capabilities; and

  <bullet>  Create an inclusive and clear management structure that 
        empowers Treasury to govern the ongoing development and 
        application of our expanded AML/CFT regime.

    In accordance with these three fundamental principles of AML/CFT 
reform, my recommendations for congressional action may be summarized 
as follows:

  1.  Expand the objectives of the BSA to explicitly include protecting 
        the integrity of the international financial system and our 
        national and collective security.

  2.  Swiftly enact company formation reform to require the systemic 
        reporting and maintenance of beneficial ownership information 
        for legal entities created or doing business in the United 
        States pursuant to an effective and workable framework.

  3.  Restructure and enhance financial investigative expertise at 
        Treasury, including with respect to the Criminal Investigative 
        Division of the Internal Revenue Service.

  4.  Provide protected resources to law enforcement, the intelligence 
        community, and counter-illicit financing targeting authorities 
        to pursue illicit financing activity and networks.

  5.  Direct Treasury to enhance financial transparency in a 
        methodical, systematic, and strategic manner that: (i) 
        addresses longstanding and substantial vulnerabilities in our 
        financial system; and (ii) pursues reporting obligations based 
        on straight-through processing that leverages new technologies, 
        provides more bulk data for counter-illicit financing 
        authorities, and ultimately reduces burdens on financial 
        institutions.

  6.  Clarify, expand, and strengthen, information-sharing between and 
        among financial institutions and governmental authorities under 
        Section 314 of the USA PATRIOT Act to encourage the broadest 
        innovation and application of new technologies to combat 
        illicit finance.

  7.  Direct and provide resources for Treasury to strengthen, expand, 
        institutionalize, and lead consultations with the AML and 
        broader counter-illicit financing community--including 
        financial sectors and other industries covered by AML/CFT 
        regulation--in establishing and implementing priorities for 
        U.S. AML/CFT policy.

These recommendations are discussed in detail in my prior testimony 
before the House Financial Services Subcommittee on Terrorism and 
Illicit Finance. In addition, my testimony before the Senate Committee 
on the Judiciary in February earlier this year provides a detailed 
explanation and proposal for company formation reform. This proposal 
would preserve effective and pragmatic company formation processes in 
the United States while addressing the national security threat 
presented by anonymous companies through beneficial ownership 
collection and reporting requirements.
    The urgency and importance of such reform is grounded in an 
understanding of the expanding role that our AML/CFT regime plays in 
protecting our national security and financial system from an expanding 
range of complex threats. We must be clear-eyed about the resources 
required to advance and protect such complex and important interests. 
We must also be attentive to the fair distribution of costs and 
responsibilities across the beneficiaries of our AML/CFT regime--
including AML/CFT and national security authorities, financial 
institutions and other vulnerable industries, the customers they 
service, and the general public. And we must focus on directing our 
AML/CFT policies and resources in a manner that drives efficiency and 
effectiveness. Congressional action and leadership is essential to 
securing interests.
    Thank you for time and consideration of these issues. I look 
forward to any questions that you may have.

 RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN SASSE FROM DENNIS 
                             LORMEL

Q.1. What incentives do financial institutions have to develop 
innovative AML techniques and consult typologies to stop human 
trafficking and fight MS-13? Are financial institutions ever 
punished for leveraging these techniques? For example, could a 
regulator punish a financial institution that found that human 
traffickers were using their services because the financial 
institution did not find the criminal activity earlier? How can 
this issue be fixed?

A.1. The questions you pose above buildupon each other. I will 
address each in progression. However, I'd like to first set the 
stage with a broad overview of the primary issue central to 
each question. Financial institutions are faced with regulatory 
requirements and regulatory expectations. What is required and 
what is expected or perceived to be expected often places 
financial institutions in precarious situations. From my 
perspective, that places financial institutions in the position 
of being less proactive and less willing to be innovative. As I 
frequently state in training I provide, the regulations are 
written in black and white. However, the interpretation or 
perceived interpretation of the regulations can be extremely 
gray. What is required and what is expected can become blurred. 
As a result, financial institutions are less inclined to be 
innovative. Regulators do not provide leadership or real 
guidance. Their response is usually that it is up to the 
financial institution to manage their risk and to have an anti-
money laundering (AML) program that is reasonably designed to 
identify suspicious activity. That poses the question of how do 
you define ``reasonably designed.'' That is where requirements 
and expectations tend to become more subjective. In addition to 
the issue of regulatory requirements versus regulatory 
expectations, there could be a significant cost consideration 
for developing and implementing innovative technologies.
    Regarding incentives to develop innovative technologies and 
typologies to identify human trafficking and fight MS-13, 
incentives are outweighed by real or perceived regulatory 
expectations. We need to distinguish between human trafficking 
and the fight against MS-13. MS-13 is one of the most notorious 
street gangs in the Western Hemisphere. They are involved in a 
myriad of criminal activities. Among their criminal activities, 
MS-13 is engaged in human trafficking, especially sex 
trafficking involving young women from the Northern Triangle of 
Central America including the countries of El Salvador, 
Guatemala and Honduras. Unfortunately, human trafficking is a 
much broader problem than the trafficking activities involving 
MS-13. Financial institutions are more inclined to look at the 
broader human trafficking issue, without specific focus on MS-
13. Regardless, financial institutions should be monitoring for 
touch points they may have to facilitate human trafficking and 
activity involving MS-13. AML compliance professionals are 
extremely dedicated and committed to disrupting human 
trafficking and transnational criminal activity. One incentive 
AML professionals share, on a more personal level, is doing the 
right thing. From an institutional level, incentive should be 
to ensure your institution maintains an AML program reasonably 
designed to identify and report suspicious activity. Financial 
institutions serve as facilitation tools or detection 
mechanisms. In detection, they protect the integrity of their 
institution. In facilitation, they risk reputational and 
financial harm. Innovation, such as targeted monitoring, where 
you identify specific typologies, and set monitoring rules to 
specific typologies can enhance the hit rate of identifying 
suspicious activity regarding human trafficking. This is in 
addition to the baseline transaction monitoring. Unfortunately, 
there is little incentive for financial institutions to develop 
such proactive measures.
    With respect to if financial institutions are ever punished 
for leveraging these techniques, the answer goes back to 
regulatory requirements versus regulatory expectations. I'm not 
sure I would characterize the concern of financial institutions 
about being punished as opposed to being questioned or second 
guessed and potentially becoming the subject of regulatory 
action because the technology upgrade either alerts more or 
less transactional activity as being potentially suspicious. 
One of the concerns here, again either real or perceived, is 
that the regulators would want the financial institution to run 
both the old technology and the new technology side by side to 
assess why more or less transactional activity gets flagged as 
potentially suspicious. In addition to regulatory concern, this 
would present the financial institution with additional cost 
and resource requirements, which could be prohibitive.
    This leads to the next part of your question as to whether 
a regulator could punish a financial institution for 
identifying the human trafficking activity they facilitated 
earlier. Real or perceived, the regulatory expectation is that 
the regulators would take an adverse action. The real issue is 
whether the earlier transactional activity was adequately 
monitored and the financial institution had a reasonably 
designed AML program. It would appear logical that enhanced 
technology would improve transaction monitoring that the 
financial institution should be credited for. Unfortunately, 
even if the financial institution was credited for the enhanced 
technology, they would be expected and/or required to take 
remedial action to identify the earlier transactions that were 
missed. Thus, taking innovative steps and enhancing technology 
in this scenario serves as a deterrent and not an incentive.
    Finally, how can this issue be fixed? In my view, this will 
require the regulators to provide leadership and/or guidance in 
incentivizing innovation and technology enhancements and 
working with financial institutions who strive to improve their 
AML programs. Where remediation is required to identify the 
earlier missed transactions, it should be done in a manner less 
detrimental than is currently experienced, unless the financial 
institution was not acting in a reasonable manner.

Q.2. Do smaller financial institutions have sufficient 
incentives and resources to use artificial intelligence 
technology? What can be done to make it easier for smaller 
financial institutions to use such technology?

A.2. Much like described in the above responses, from an AML 
perspective, there is little or no incentive for smaller 
financial institutions to take steps to enhance their 
technology. From the cost and resource perspective, it's even 
more prohibitive and challenging for smaller financial 
institutions to be innovative. Incentives must be developed to 
encourage financial institutions, large and small, to become 
more innovative.
    This leads to another industry-wide AML vulnerability. In 
part, because of real or perceived regulatory expectations, 
financial institutions tend to be more conservative and 
predictable. Bad actors, who are proficient in gaming the 
system and identifying systemic vulnerabilities, exploit those 
institutional vulnerabilities to facilitate their illicit 
activity. This is exacerbated by the fact that AML programs and 
fraud detection are inherently reactive. We must do more to 
become innovative and proactive. This requires more forward 
thinking that should be spurred on through meaningful 
incentives.

Q.3. What would it look like for a Federal AML regime to better 
prioritize particular law enforcement targets? What--if any--
AML priorities should be de-emphasized? How could a system 
still ensure that a basic level AML competence was met so that 
still-important law enforcement priorities did not fall through 
the cracks?

A.3. As with your first group of questions, let me respond 
first, more broadly, and then more specifically to each related 
question. There is no easy answer to better prioritizing or de-
emphasizing crime problems. You need to assess this from both 
the law enforcement and financial institution perspectives. 
From the law enforcement perspective, crime problems must be 
prioritized at a national level from a program perspective and 
at the local or grass roots level from the local or grass roots 
problems encountered in that jurisdiction. Criminals and crime 
problems evolve. Crime problem surveys or assessments must be 
conducted at the national and local or grass roots levels in 
order to monitor current and emerging crime trends. These 
surveys or assessments cannot be static and must be ongoing to 
better identify emerging trends. At the financial institution 
level, financial institutions must conduct ongoing risk 
assessments to assess their institutional risk and to identify 
potential touch points with national and local or grass roots 
crime problems and priorities. Risks and potential criminal 
touchpoints will be institution specific in accordance with an 
institutions customer base, geographic footprint, and product 
and service offerings. Financial institutions should be 
familiar with the general law enforcement crime problem 
priorities at the national and local or grass roots level. In 
terms of prioritizing law enforcement crime problem priorities, 
each law enforcement agency has different or similar priorities 
in accordance with their investigative jurisdiction and 
mandate. The major national priorities are terrorism, drugs, 
and human trafficking. In my experience, every crime problem, 
which goes beyond terrorism, drugs and human trafficking, other 
than violent crimes, all have elements of fraud and require 
money laundering. Thus, in my experience, fraud and money 
laundering are linked together and are ingrained in all such 
criminal activity or predicate offenses. Financial institutions 
not only need to be familiar with relevant crime problems but 
also, importantly, the facilitation tools used in furtherance 
of such criminal activities. Included as facilitation tools are 
shell companies (beneficial ownership), the internet, 
electronic mechanisms, informal and illegal money remitters, 
correspondent banks and other facilitation tools.
    It is incumbent that law enforcement, at all levels, and 
financial institutions establish, and maintain sustainable 
partnerships and working groups to share information and to 
understand the crime problems and law enforcement priorities, 
at the national and local or grassroots levels. In working with 
law enforcement, financial institutions should develop 
typologies for crime problems that are more specific to their 
institutional risk. Such typologies should be used for targeted 
monitoring initiatives and to enhance baseline transaction 
monitoring.
    With respect to a Federal regime to better prioritize 
particular law enforcement targets, it would be extremely 
challenging and unproductive to develop a viable single 
national regime. This is due to the number of law enforcement 
agencies, varying jurisdictions and priorities and how these 
crime problems would touch financial institutions. The bottom 
line here is there can be no one size fits all policy, its 
contingent on risk, which impacts law enforcement agencies and 
financial institutions differently.
    De-emphasizing AML priorities cannot be uniform across the 
financial services industry. De-emphasis of AML priorities 
should be left to the discretion of each financial institution 
on a risk-based assessment.
    In terms of law enforcement priorities falling through the 
cracks with financial institutions' AML programs, I do not 
consider that as a problem or concern. Overall, law enforcement 
publishes crime problem priorities through their websites and 
outreach programs. As I mentioned earlier, it is incumbent that 
law enforcement and financial institutions establish 
partnerships and working groups to share information and better 
understand crime problems and systemic vulnerabilities. There 
are a number of national and grassroots working groups that 
serve as great models for success. An example at the national 
level includes the FBI's Terrorist Financing Operations Section 
(TFOS), national working group that they refer to as the Bank 
Security Advisory Group (BSAG). It involves a number of 
financial institutions meeting bi-annually with representatives 
of TFOS, regarding terrorist financing and through ongoing 
information sharing to develop typologies. An example of a 
local or grassroots working group is monthly meetings held by 
the Northern Virginia SAR (suspicious activity reports) Review 
Team. The SAR Review Team holds monthly meetings to discuss 
typologies and crime problems specific to the local Northern 
Virginia regional area. These are two examples of many such 
working groups. It would be very difficult, if not impossible, 
to template such groups. They need to be specific to the 
investigative mandate of the law enforcement side and the risk 
or touch points to involved financial
institutions.

Q.4. One potential hurdle to creating an effective feedback 
loop between law enforcement officials and financial 
institutions is that law enforcement officials are reluctant to 
share information about ongoing investigations.
    Is that a legitimate concern that should prevent law 
enforcement officials from sharing information with financial 
institutions?

A.4. I am a huge proponent for developing consistent and broad 
feedback mechanisms. When I ran the FBI's Terrorist Financing 
Operations Section, I frequently met with then FinCEN Director 
James Sloan to develop viable and consistent feedback 
mechanisms. We were always confronted with a number of 
impediments to set up a consistent and broad feedback 
mechanism. That said, impediments should not be an excuse to 
develop meaningful feedback mechanisms.
    There are legitimate concerns regarding law enforcement 
sharing information about ongoing investigations. If the 
investigations involve grand jury material, that information 
cannot be shared during an ongoing investigation. Likewise, any 
classified information developed during an investigation cannot 
be shared. Depending on the sensitivity of an investigation 
there could well be safety and security issues for law 
enforcement personnel, particularly in undercover scenarios or 
in situations involving confidential informants or cooperating 
witnesses. In situations where information could be shared or 
feedback provided, consideration should be given to doing so. 
In most situations involving ongoing investigations, it would 
be more likely not appropriate to share information.

Q.4.a. How could those concerns be mitigated?

A.4.a. For the most part, as explained in the prior response, 
these concerns cannot be mitigated. Where there could be room 
for information sharing or feedback could be in situations 
where indictments or convictions or other legal process has 
been issued and information is in the public record through 
court filings. The fact a SAR was filed should not be disclosed 
but information and evidence developed as a result of the SAR 
filing could be in the public domain. In such cases, feedback 
should not be a problem other than investigative resource 
considerations.

Q.4.b. Even if law enforcement officials could not provide 
feedback about SARs relating to ongoing investigations, could 
they at least provide feedback about SARs relating to completed 
investigations?

A.4.b. Feedback regarding completed investigations should 
result in fewer impediments and could be more viable. However, 
there are certain considerations to take into account. First is 
how time consuming might this be and does law enforcement have 
the time to provide such feedback or are they dealing with 
other matters that must be prioritized? Hence, are they 
legitimately lacking the capacity to provide feedback? This 
impediment should not be a consistent issue. The greater 
challenge is that the investigation could have gone on for one 
or more years and the feedback may no longer be relevant or as 
relevant or law enforcement does not keep track of the 
importance of SARs at that point in time.

Q.4.c. What--if any--other mechanisms should be developed to 
improve the feedback loop between law enforcement officials and 
financial institutions?

A.4.c. At the national level, law enforcement and FinCEN should 
assess how to develop a consistent feedback mechanism. In 
speaking to officials at the FBI, I understand the Financial 
Crimes Section in the Criminal Division, is looking at this 
issue. What should be noted here and could be modeled after are 
the various public private partnerships, working groups and 
crime problem specific initiatives that involve meaningful 
feedback. I alluded to the FBI, TFOS working group. Meaningful 
information and feedback occurs there. As I stated in my 
testimony on June 20, 2018, great examples of feedback include:

        The Association of Certified Anti-Money Laundering Specialists 
        (ACAMS) has made human smuggling a long-time priority. They 
        started a working group in 2010 with a group of major banks and 
        HSI. Bank analysts and HSI analysts developed patterns of 
        activity or typologies consistent with human smuggling. 
        JPMorgan Chase had a team of special investigators who 
        conducted targeted transaction monitoring and identified 
        potential suspicious activity. ACAMS gave JPMorgan Chase and 
        HSI a special award in recognition of their outstanding 
        collaboration. Another outstanding example of public and 
        private sector partnerships occurred in January 2018, in the 
        run up to the Super Bowl. The ACAMS Minneapolis Chapter held a 
        half day learning event focused entirely on human slavery/
        trafficking. I was proud to be the first speaker. U.S. Bank, 
        HSI and the U.S. Attorney's Office in Minneapolis collaborated 
        to develop typologies to identify human sex trafficking 
        specifically related to travel for the Super Bowl. These types 
        of initiatives have a great impact on crime problems like human 
        trafficking. I must give a cautionary comment that this type of 
        initiative is not as easy as it sounds. It can be costly. There 
        are regulatory concerns and other impediments that must be 
        overcome. The September issue of ACAMS Today magazine had a 
        detailed article about the Minneapolis learning event.

Q.4.d. Should policymakers consider reforming Section 314(b)? 
If so, how?

A.4.d. As noted earlier in my responses, I am a huge proponent 
of information sharing. I believe that policymakers should 
consider reforming or enhancing both Section 314(b), which is 
the sharing of information between financial institutions, and 
Section 314(a), which is information sharing between law 
enforcement and financial institutions.
    With respect to Section 314(b), I would encourage 
policymakers to assess the percentage of participating 
financial institutions by asset size. My sense is less small 
banks participate in the Section 314(b) program. I would want 
to know why institutions, especially small institutions, do not 
participate. It is likely it is due to concern for cost and the 
lack of resources to handle the requests. I would also consider 
how to incentivize banks to participate in the Section 314(b) 
program.

Q.4.e. Should policymakers consider reforming Section 314(a)? 
If so, how?

A.4.e. With respect to Section 314(a), I would encourage 
policymakers to go back and assess the original intent for 
Section 314(a). My understanding from interaction with 
individuals involved in the process, the intent was that 
information sharing be both ways.
Section 314(a) currently only has information going from 
financial institutions to law enforcement. Would it be viable 
for law enforcement to also provide information to financial 
institutions? This is definitely a question that policymakers 
should assess. If an information sharing mechanism can be 
developed through Section 314(a) from law enforcement to 
financial institutions, it may offset the SAR feedback 
mechanism to an extent.
                                ------                                


 RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARNER FROM DENNIS 
                             LORMEL

Q.1. I'm concerned by the apparent growing use of 
cryptocurrencies by bad actors to evade sanctions and anti-
money laundering laws. Whatever their other potential benefits 
may be, cryptocurrencies are attractive to cybercriminals, drug 
cartels, darkweb consumers, and countries like Iran, North 
Korea and Russia, that are interested in evading sanctions. One 
recent study of Bitcoin transactions found that darknet 
marketplaces such as Silk Road and AlphaBay, were the source of 
almost all of the illicit bitcoins laundered through conversion 
services. A significant percentage of Bitcoin conversion 
services work to conceal where they operate, which complicates 
finding the right foreign governments to partner with to ensure 
AML/CFT enforcement.

A.1. I firmly believe we should embrace technology and the use 
of cryptocurrency. At the same time, we must demand 
transparency and accountability. Criminals have been fast to 
embrace new technologies in order to circumvent transparency 
and reporting requirements. Unfortunately, AML compliance and 
fraud prevention are inherently reactive, while bad actors are 
not restricted by regulations and can be proactive.

Q.2.a. Are FinCEN's existing cryptocurrency policies adequate 
to combat AML/CFT using cryptocurrency?

A.2.a. Cryptocurrency poses a significant challenge for 
regulators and law enforcement. That's because of the unknown 
and the challenge the inherent reactive nature of AML 
compliance. As cryptocurrency and technology advance we must 
continuously and objectively assess the effectiveness of 
regulations and our ability to deal with emerging criminal 
challenges.
    I believe FinCEN's existing policies and authority are 
adequate but must continuously be assessed and enhanced. My 
bigger concern is whether FinCEN and the Internal Revenue 
Service (IRS) possess the resources necessary to meet and 
address the continuously emerging crime problems posed by 
cryptocurrency and the ability to use the dark web. Neither 
FinCEN nor the IRS have an abundance of resources to address 
the evolution of the problem. The crime problem is likely to 
evolve faster than the adequacy of regulations or the capacity 
to deal with the crime problem. That is why we must ensure 
FinCEN, the IRS and other regulators and law enforcement 
agencies have the resources and capacity to address this 
emerging problem.

Q.2.b. If not, what more could FinCEN be doing to combat this?

A.2.b. I believe FinCEN currently has adequate capacity but 
must continuously assess the emerging problems posed by bad 
actors and realistically and proactively address impediments, 
resource constraints and emerging trends.

Q.2.c. And if not, does FinCEN have adequate authority to 
address the issue?

A.2.c. In my opinion, FinCEN currently has adequate authority 
to address the issue but that capacity must continuously be 
assessed and enhanced because it can and will be overwhelmed 
much faster than can be dealt with.
                                ------                                


 RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN SASSE FROM TRACY S. WOODROW

Q.1. Much of the future of AML efforts seems to be in 
artificial intelligence and machine learning. In the healthcare 
context, I hear about how researchers have used machine 
learning and artificial intelligence to identify diseases and 
predict when they will occur, using data points that humans 
would have never put together. How have financial institutions 
or law enforcement officials been able to use similar 
techniques to identity money laundering and how much more 
progress can be made in this front?

A.1. Responses not received in time for publication.

Q.2. What incentives do financial institutions have to develop 
innovative AML techniques and consult typologies to stop human 
trafficking and fight MS-13? Are financial institutions ever 
punished for leveraging these techniques? For example, could a 
regulator punish a financial institution that found that human 
traffickers were using their services because the financial 
institution did not find the criminal activity earlier? How can 
this issue be fixed?

A.2. Responses not received in time for publication.

Q.3. Do smaller financial institutions have sufficient 
incentives and resources to use artificial intelligence type 
technology? If not, what can be done to make it easier for 
smaller financial institutions to use such technology?

A.3. Responses not received in time for publication.

Q.4. I worry that law enforcement officials and regulators 
provide to financial institutions an insufficient indication of 
their priorities in the AML context. In practice, many 
financial institutions feel as if they must spend as many 
resources on minor crimes as they do human and drug 
trafficking. If everything is a priority, nothing is a 
priority. Financial institutions need to be able to focus their 
resources on human and drug traffickers without getting in 
trouble if they comply with fewer process-based regulatory 
requirements along the way.

A.4. Responses not received in time for publication.

Q.5. Is there a lack of regulatory and law enforcement 
prioritization in the money laundering context? If so, how does 
this impact our AML regime?

A.5. Responses not received in time for publication.

Q.6. What are the most prominent examples of a lack of 
prioritization in our AML regime?

A.6. Responses not received in time for publication.

Q.7. What would it look like for a Federal AML regime to better 
prioritize particular law enforcement targets? What--if any--
AML priorities should be de-emphasized? How could a system 
still ensure that a basic level AML competence was met so that 
still-important law enforcement priorities did not fall through 
the cracks?

A.7. Responses not received in time for publication.

Q.8. One potential area that involves lack of prioritization is 
the current process of filing suspicious activity reports. 
Financial institutions in my State spend a lot of resources 
filing these reports, and rarely seem to get feedback on what 
is useful and what is not. This makes it hard for them to 
understand the point of our SARs system. What is the cost of 
our current SARs system for the average financial institution? 
Is there anything policymakers can do to right-size the SARs-
based regulatory requirements without undermining law 
enforcement priorities? For example, in certain instances 
should financial institutions be able to file only the 
underlying data and not spend the time necessary to prepare a 
broader report justifying the SAR?

A.8. Responses not received in time for publication.

Q.9. One potential hurdle to creating an effective feedback 
loop between law enforcement officials and financial 
institutions is that law enforcement officials are reluctant to 
share information about ongoing investigations.

A.9. Responses not received in time for publication.

Q.10. Is that a legitimate concern that should prevent law 
enforcement officials from sharing information with financial 
institutions?

A.10. Responses not received in time for publication.

Q.11. How could those concerns be mitigated?

A.11. Responses not received in time for publication.

Q.12. Even if law enforcement officials could not provide 
feedback about SARs relating to ongoing investigations, could 
they at least provide feedback about SARs relating to completed 
investigations?

A.12. Responses not received in time for publication.

Q.13. What--if any--other mechanisms should be developed to 
improve the feedback loop between law enforcement officials and 
financial institutions?

A.13. Responses not received in time for publication.

Q.14.a. Should policymakers consider reforming Section 314(b)? 
If so, how?

A.14.a. Responses not received in time for publication.

Q.14.b. Should policymakers consider reforming Section 314(a)? 
If so, how?

A.14.b. Responses not received in time for publication.
                                ------                                


 RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARNER FROM TRACY S. WOODROW

    I'm interested in the ways in which technology can aid AML 
compliance efforts.

Q.1. What are some of the innovative technologies that you've 
seen that hold some promise for either the Government or the 
private sector?

A.1. Responses not received in time for publication.

Q.2. Are you aware of privacy-enhancing technologies that 
facilitate the sharing of information between parties without 
revealing personal identifying information?

A.2. Responses not received in time for publication.

Q.3. What are the barriers to either the Government or the 
private sector adopting these technologies?

A.3. Responses not received in time for publication.

Q.4. What can we be doing as legislators to ensure that we 
promote technological innovation in this sector?

A.4. Responses not received in time for publication.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
